<html>
<title> - ARMED AND DANGEROUS: CONFRONTING THE PROBLEM OF BORDER INCURSIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    ARMED AND DANGEROUS: CONFRONTING 
                    THE PROBLEM OF BORDER INCURSIONS 
=======================================================================
                                HEARING

                               before the

                     SUBCOMMITTEE ON INVESTIGATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2006

                               __________

                           Serial No. 109-60

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

35-965 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















                     Committee on Homeland Security



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

                     SUBCOMMITTE ON INVESTIGATIONS



                   Michael T. McCaul, Texas, Chairman

Christopher Shays, Connecticut       Bob Etheridge, North Carolina
Daniel E. Lungren, California        Bill Pascrell, Jr., New Jersey
Dave G. Reichert, Washington         Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bennie G. Thompson, Mississippi 
Officio)                             (Ex Officio)

                                  (II)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Investigations.................................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     5
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................     4
The Honorable Steven Pearce, a Representative in Congress From 
  the State of New Mexico........................................    21

                               Witnesses
                                Panel I

Mr. David Aguilar, Chief, Border Patrol, Department of Homeland 
  Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Ms. Elizabeth Whitaker, Deputy Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, Department of State:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10

                                Panel II

Mr. T.J. Bonner, President, National Border Patrol Council:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44
Mr. Esequiel Legarreta, Deputy Sheriff, Hudspeth County, State of 
  Texas:
  Oral Statement.................................................    38
  Prepared Statement.............................................    41
Mr. Leo Samaniego, Vice Chair, Texas Border Sheriff's Coalition, 
  Sheriff El Paso County, State of Texas:
  Oral Statement.................................................    34
  Prepared Statement.............................................    35
Sheriff Arvin West, Hudspeth County Sheriff's Department, 
  Hudspeth County, State of Texas:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                               Panel III

The Honorable Silvestre Reyes, a Representative in Congress from 
  the 16th District, State of Texas:
  Oral Statement.................................................    56

                                Appendix
                   Additional Questions and Responses

Ms. Elizabeth Whitaker Responses.................................    59


   ARMED AND DANGEROUS: CONFRONTING THE PROBLEM OF BORDER INCURSIONS

                              ----------                              


                       Tuesday, February 7, 2006

                  House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:10 p.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul, 
[chairman of the subcommittee] presiding.
    Present: Representatives McCaul, King, ex officio, and 
Etheridge.
    Also Present: Representative Pearce.
    Mr. McCaul. The Committee on Homeland Security, 
Subcommittee on Investigations, will come to order.
    I see that Mr. Pearce from New Mexico has arrived. I ask 
unanimous consent that he be allowed to sit on the dais and 
question the witnesses for the hearing.
    Having heard no objection, so ordered.
    The subcommittee is meeting today to hear testimony on 
increased violence and the problem of incursions on the 
southern border. We will hear eyewitness testimony on the 
specific incursion that occurred on January 23, 2006.
    I want to welcome the members of the subcommittee and the 
full committee to this landmark hearing. I would also like to 
offer a special welcome to the members of the Texas Border 
Sheriffs Coalition, who are present here today. I appreciate 
you coming up all the way here to Washington to participate. We 
appreciate the hard work you do every day to make us more safe 
and secure.
    This marks the first official meeting of the Homeland 
Security Subcommittee on Investigations. I want to thank 
Chairman King for his vision in creating this committee and for 
the honor he has bestowed upon me to chair it. It is also an 
honor to serve with Ranking Member Bob Etheridge.
    Today we will thoroughly examine the expanding crisis of 
violence on America's border with Mexico and, more 
specifically, we will investigate the increasing number of 
border incursions into America's sovereign land. The 
incursions, which often result in violent crimes, are 
unacceptable and cannot be tolerated. We want to know who is 
involved, examine trends and renew coordination between 
Federal, State and local law enforcement in deterring, 
responding and investigating these crimes.
    The violence on the southern border that our Border Patrol 
and local law enforcement encounter is increasing at an 
alarming rate. From 2004 to 2005 violent incidents against 
Border Patrol agents on the southern border have increased by 
108 percent. Since October there have been 92 incidents of rock 
assaults, 47 physical assaults, 15 vehicle assaults and 19 
firearm assaults on Border Patrol agents.
    Today, we will see graphic photos of the injuries to the 
agents as a result of rock-throwing assaults on the border. 
According to the Department of Homeland Security, there have 
been 231 reported incursions into the United States since 1996. 
There is little doubt that the majority of these incidents, 
mostly occurring on the southwest border, are accidental. But 
even these accidental crossings present an opportunity for 
serious injury and loss of life. In fact, there are incidents 
of U.S. officers accidentally crossing into the Mexican side in 
pursuit. However, there are several reports of intentional 
violations of U.S. sovereignty by groups often smuggling 
hundreds of pounds of drugs, which appear to be associated with 
members of Mexican military or police forces.
    To date, law enforcement has maintained an extraordinarily 
high degree of control and restraint. This may not always be 
the situation and it will not take much for one of these 
standoffs to turn violent and deadly.
    On January 26, 2006, I, along with Chairman King, sent 
letters to Secretaries Rice and Chertoff asking for a full 
report on these incursions, the policies of the Departments of 
State and Homeland Security addressing Mexican incursions into 
the United States, and the procedures established by State and 
Homeland Security in responding to such incidents. I also sent 
a letter to the Mexican ambassador to the United States, and I 
related my concerns about the reports of the most recent 
incursions into the United States and requested that he meet 
with me at his earliest convenience to discuss the details of 
this incident so that we can learn more about what measures are 
being taken to prevent any future occurrences. Moreover, I 
asked the ambassador to give his assurances that these 
incursions into the United States territory are not condoned by 
the Government of Mexico.
    Just before this hearing, I had the opportunity to meet 
with that Mexican ambassador to the United States, and I want 
to thank him for meeting with me and Chairman King and 
discussing this very important issue of border security; and 
the one issue and topic we came out of the meeting with is, we 
need greater cooperation between or two countries.
    While it is possible that large drug cartels are using 
military-like uniforms, vehicles and weapons, the bottom line 
is that these incidents threaten the safety of law enforcement 
agents, citizens, and the security of our Nation. Just 2 weeks 
ago, on January 23, military-like Humvees assisted three SUVs 
in entering the United States at Neely's Crossing, Hudspeth 
County, Texas. As many of you know from recent press reports, 
this illegal activity was intercepted by local sheriff's 
deputies, members of the Texas Department of Public Safety, and 
the Border Patrol.
    A chase ensued whereby the Humvees and one SUV successfully 
retreated into Mexico. One became stuck in the Rio Grande River 
and was destroyed by the individuals involved. The last vehicle 
was captured and found to contain more than 1,400 pounds of 
marijuana. At this hearing we will show the video of the chase 
and the activities on the banks of the Rio Grande River. 
Unfortunately, the individuals responsible escaped to a safe 
haven and avoided apprehension.
    There is an ongoing Federal investigation and investigation 
by the Mexican Government into who actually perpetrated this 
crime. The successful outcome of this investigation will depend 
on coordination between all levels of U.S. Government and, most 
importantly, cooperation from the Mexican Government.
    This is but one of several serious incidents. A few others 
include March 14, 2000, near Santa Teresa, New Mexico, where 
border patrol agents apprehended nine individuals involved in 
an incursion after being fired upon. On October 14, 2000, 
Border Patrol agents in San Diego, California, were shot at 
from across the border by individuals appearing in Mexican 
uniforms. And May 18 of 2002, in Arizona the Border Patrol 
agents had the rear and side windows of his vehicle shot out 
during a reported incursion. Since October, 2005, to date, 
there have been six more known incursions at the border.
    We share a common border with Mexico and--my home State of 
Texas does, but we also share a responsibility for developing 
effective policies to deter a highly organized and armed 
criminal element that is a threat to both of our countries. We 
will hold our friend and neighbor to the south to a high 
standard of cooperation and responsibility. This organized 
criminal element threatens the security and the well-being of 
citizens of both of our great nations.
    In response to the increased violence on the border, Texas 
State and local law enforcement implemented Operation 
Linebacker. I believe the sheriffs here know what that is all 
about, and I applaud them for their efforts in Operation 
Linebacker. This program involves cooperation between the 
Border Patrol and local law enforcement preventing illegal 
immigration and criminal activity.
    The House of Representatives last December passed the 
Border Protection Antiterrorism and Illegal Immigration Control 
Act of 2005, which will strengthen enforcement of immigration 
laws and enhance border security. We call upon the Senate to 
pass this tough border security bill because it is as important 
now, more than ever, to have increased border security in 
enforcement of our immigration laws.
    The first duty of this government is to protect and defend 
its citizens, and protecting and securing our borders is a 
crucial part of this responsibility. Our borders cannot become 
the gateway for criminal enterprise and trafficking and 
terrorist activity. Our border must be the crossroads for safe 
and mutually beneficial trade, travel and tourism.
    But our border is in crisis. We know that al-Qa'ida would 
like to exploit our borders and we know that they are 
vulnerable, and I have often stated that in the post-9/11 world 
this is no longer just an immigration issue, it is one of 
national security.
    Today we will hear from several border sheriffs who put 
themselves on the front lines every day. It is they who live 
the violence and face the threats, but this is a threat not 
only to law enforcement, it is a threat to the safety and 
security of all Americans. It is our duty and responsibility in 
the Congress to first and foremost protect the American people.
    The Chair now recognizes the ranking minority member of the 
subcommittee, the gentleman from North Carolina, Mr. Etheridge, 
for any statement he may have.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me also welcome 
all of you here. I also want to thank all the witnesses who are 
here today attending the first hearing of the Investigative 
Subcommittee.
    Let me at the outset applaud Chairman King and Ranking 
Member Thompson for their foresight in forming this 
subcommittee. The Department of Homeland Security was created 3 
years ago this month, and I have had the privilege of serving 
first on the Select Committee and now on the permanent Homeland 
Security Committee, a very important committee, I think, in 
this Congress.
    The last 3 years we have seen the Department struggle to 
integrate 22 separate agencies with their own traditions and 
their own culture. It has been a pretty messy process and 
progress has been uneven at best.
    I look forward to serving on the Investigation Subcommittee 
because we know that we get better results when processes are 
transparent and Congress pays close attention to the 
implementation of initiatives. Congressman McCaul and I have 
agreed that this subcommittee will work in a fair and 
bipartisan manner with the intent of encouraging the good and 
fixing the bad at the Department of Homeland Security.
    Today we will address the security of our national borders. 
The United States shares a 2,000-mile border with Mexico to the 
south and a 4,000-mile border with Canada to the north. The 
Federal Government currently employs about 11,200 agents to 
protect these borders, and I am proud to say that I have 
consistently supported increasing this number, especially in a 
9/11 world.
    Specifically, the bipartisan 9/11 Commission recommended 
significant increases in Border Patrol agents and Congress 
passed legislation to implement those increases. Unfortunately, 
the administration has failed to provide adequate funding for 
the Border Patrol to this date. These brave men and women take 
their mission to protect our country very seriously, and we 
need to make sure that they have the personnel and the 
resources necessary to do their job adequately. Border security 
and immigration control are Federal issues, and I think we will 
see today the need to beef up our Federal forces.
    I would like to commend Sheriff West, Deputy Sheriff 
Legarreta and the other Texas sheriffs who have made the trip 
to Washington today to not only describe the events of January 
23, but also to share with us their needs and concerns about 
border security and enforcement. They are on the ground and on 
the front line also.
    Since the September 11th attacks, the Federal Government 
has put ever-increasing demands on our State and local first 
responders who were already working hard to protect their 
communities. Local and State law enforcement are critical 
partners in the fight against terror, but we need to make sure 
that the Federal Government meets their responsibility for 
securing our Nation and enforcing Federal law. The Federal role 
is critical to the effectiveness of this partnership.
    I am very concerned that the administration's budget 
proposes eliminating the State criminal alien assistance 
program that is used to reimburse State and local law 
enforcement for detaining criminal aliens like the Mexican drug 
smugglers. The budget will also eliminate the successful COPS 
interoperable communication grant initiative. We have learned 
from the 9/11 attacks and also again with Hurricane Katrina 
that interoperability is an urgent challenge for our first 
responders. The Federal Government needs to provide more 
support in these areas, not less.
    I look forward to the testimony of the U.S. State 
Department and the Customs and Border Patrol officials, as well 
as that of the law enforcement personnel on the ground at our 
border.
    Thank you, Mr. Chairman, and I look forward to the 
testimony today and the Q&A that will follow.
    Mr. McCaul. The chairman recognizes the chairman of the 
full committee, the gentleman from New York, Mr. King, for any 
statement he may have.
    Mr. King. Thank you, Chairman McCaul, Ranking Member 
Etheridge. It is a pleasure to welcome Congressman Pearce.
    Let me say at the outset, I am delighted to be here today 
for a number of reasons. First, let me say that one of my first 
acts as chairman of the full committee was to establish this 
subcommittee, and it was precisely for reasons such as this, 
for issues such as this, that I thought it was important in the 
post-9/11 era that we have a special committee on 
investigations, special Subcommittee on Investigations, and I 
especially selected Congressman McCaul because of the extensive 
experience he had as a prosecutor on the Joint Terrorism Task 
Force and also the fact that he represents a district in Texas 
being so close to the border. So he has personal interest, 
personal involvement and long expertise in these issues.
    I must say that when I appointed him to the position I also 
did not know that he had such a great ability to draw a crowd. 
So there are probably more people today than for all of the 
subcommittee hearings combined during the year.
    Seriously, the people are here today because this issue is 
so vital and it is so important. It involves our sovereignty as 
a nation, involves our relationship with our friends to the 
south, the Government of Mexico. Whether we are talking about 
incursions, violations of our border, it is essential our 
subcommittee look into all the ramifications of those issues.
    I want to commend also the sheriffs from the State of Texas 
who are here today. Especially I want to commend Chief Aguilar 
for the job that he does with the Border Patrol; and as I was 
mentioning to the chief beforehand, my father was a New York 
City police officer for many years, and I have some idea of 
just how tough this job is, that all of you have, where you get 
very little credit for what is done right.
    I certainly appreciate the job you do, day in and day out, 
and all of the men and women who serve under you and the job 
that they do. You are literally on the front lines. I want to 
commend you for all that you do.
    I also want to point out that because the Border Patrol is 
so important, I am very pleased the President in his budget is 
requesting 1,500 new Border Patrol agents. I believe that will 
be a very vital step forward. It is going to be a vital step 
forward.
    Also, in the immigration bill and border security bill that 
we passed in the House last month, a major part of that was an 
amendment by Congressman McCaul which will allow reimbursement 
to local law enforcement for the job they do in assisting 
Federal law enforcement in border protection. I think that is 
important.
    And also on the issue of interoperability, the Deficit 
Reduction Act we passed just last week includes $1 billion for 
interoperability, which is absolutely essential.
    Let me say I look forward to this hearing today. I regret I 
will not be able to stay for all of it because I do have a 
prior engagement I have to go to in my role as chairman of the 
full committee, but I want to commend Congressman McCaul for 
responding so quickly and putting together this hearing today, 
because I think it is essential. It addresses the specific 
issues, but also more global issues of the security of our 
border, our long-term relationship with the Government of 
Mexico, working on this issue, and what more we feel has to be 
done.
    We just had a meeting with the Mexican ambassador, and 
Congressman Pearce brought up the issue of while we understand 
why the Government of Mexico may not want to see more American 
troops on the border, perhaps then we should see more Mexican 
armed forces, law enforcement personnel, border personnel on 
the Mexican side of the border, because what is happening along 
the border where we find our agents being attacked, massive 
incursions, where constituents of Congressman Pearce and others 
find themselves in peril to a degree they never were in just 
several years ago, really cries out for action.
    So I think the meeting with the ambassador, which certainly 
was prompted by the issues that are raised here today--and 
Congressman McCaul scheduled these hearings--I think are very 
significant steps.
    I want to commend you for calling this hearing, I want to 
thank the witnesses for being here today and I look forward to 
the testimony and following through with you as far as we have 
to.
    Mr. McCaul. Thank you, Mr. Chairman. I appreciate that. 
Other members are reminded that opening statements may be 
submitted for the record.
    We are pleased to have distinguished panels of witnesses 
before us on this important topic. Let me remind the witnesses 
that their entire written statements will appear in the record. 
We ask that due to the number of witnesses, you strive to limit 
your testimony to no more than 5 minutes.
    The Chair recognizes the first panel, Elizabeth Whitaker, 
Deputy Assistant Secretary, Western Hemisphere Affairs, 
Department of State--thanks for being here--and David Aguilar, 
the Chief of Border Patrol, U.S. Customs and Border Protection, 
Department of Homeland Security, to testify.
    We will begin with the testimony from Assistant Secretary 
Whitaker.

 STATEMENT OF ELIZABETH WHITAKER, DEPUTY ASSISTANT SECRETARY, 
   BUREAU OF WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE

    Ms. Whitaker. Thank you, Mr. Chairman. Chairman McCaul and 
distinguished committee members, my name is Elizabeth Whitaker 
and I am the Deputy Assistant Secretary of State for Mexico, 
Canada and Public Diplomacy in the Bureau of Western Hemisphere 
Affairs in the Department of State. It is a pleasure to appear 
before you to discuss recent incidents along our southern 
border and, specifically, to discuss the January 23 incursion 
into Hudspeth County, Texas, east of El Paso.
    I am also pleased to be here with my colleague, Chief 
Aguilar, of the U.S. Border Patrol, the organization with 
primary responsibility within the Department of Homeland 
Security for responding to incursions across our borders.
    It is safe to say that our working relationship with our 
partners in Mexico is excellent, and this relationship is a 
critical one. This is not to say that we do not continue to 
have significant challenges and issues with the Mexican 
Government related to the border we share, however. And in 
response, the Department of State has established several 
mechanisms through which we regularly communicate and 
coordinate with Mexican authorities at all governmental levels 
and in this way seek to preclude future incursions.
    These mechanisms include, one, border liaison mechanism 
meetings or BLM meetings. These meetings are held by each of 
the Department of State's border posts two to four times a 
year. They bring together U.S. and Mexican diplomatic, law 
enforcement and other government personnel from both sides of 
the border to discuss issues requiring operational and policy 
coordination. These meetings allow our diplomats on the border, 
as well as U.S. law enforcement officers, to get to know their 
Mexican counterparts personally.
    Number two, the second mechanism is the binational 
commission meetings. These are annual meetings between the 
United States and Mexican Governments which are cohosted by the 
Secretary of State and the Mexican Minister of Foreign 
Relations. They include Cabinet-level officials from both 
governments.
    There are three working groups related to border security, 
migration, and law enforcement that meet throughout the year as 
part of the binational commission meeting. Those groups are the 
border security and cooperation group, the migration and 
consular affairs group, and the law enforcement 
counternarcotics working group. The BNC fosters enhanced 
government-to-government communication and liaison and, in this 
way, helps to prevent future border incursions.
    A third mechanism is the senior law enforcement plenary, or 
SLEP, which brings together senior law enforcement policymakers 
semiannually to discuss law enforcement issues, including 
antinarcotics, organized crime and trafficking in persons. SLEP 
also identifies those issues that are to be raised bilaterally 
at the Cabinet level through the binational commission. The 
SLEP mechanism allows senior Federal law enforcement 
policymakers from both governments to get to know each other 
and improve working relations.
    In addition to these periodic meetings and mechanisms, both 
the Department of State and U.S. law enforcement agencies meet 
with our Mexican counterparts on many specific issues 
throughout the year. I would also note that the Department of 
State has four officers assigned full time to border issues. 
They are on staff in the Office of Mexican Affairs.
    As you are aware, the primary responsibility for security 
of our southern border rests with the Department of Homeland 
Security, but the Department of State plays an important 
supporting role. That is why I am pleased to appear before you 
with my colleague, Chief Aguilar.
    The Department of State shares the concerns of DHS with 
respect to border incursions and the safety of U.S. Border 
Patrol agents, especially those incidents involving organized 
criminal networks. We take each and every border incursion 
seriously and actively work with our colleagues in DHS and 
partners in the Government of Mexico to investigate and respond 
to each and every reported incident.
    Further, through the Security and Prosperity Partnership 
the Departments of State and Homeland Security are working 
cooperatively to implement the mutually beneficial, agreed-upon 
initiatives to secure the border and reduce these types of 
incidents from occurring in the future.
    I would like to speak very briefly about how the Department 
of State is organized to deal with border issues. The 
Department of State has five posts or diplomatic missions along 
the almost 2,000 mile border between the U.S. and Mexico. 
Starting from east to west, these posts are located in the 
Mexican border cities of Matamoros; Nuevo Laredo; Ciudad 
Juarez, which is across the border from Texas; Nogales, across 
the board of from Arizona; and Tijuana.
    They have a responsibility for a section of the border on 
the Mexican side as part of its consular district. These posts 
learn of border incursions into the U.S. by Mexicans from their 
consular districts, from U.S. law enforcement authorities that 
deal with or are alerted to the incursion either at the local, 
State or Federal levels. Depending on the nature and 
seriousness of the incursion into the U.S., the post contacts 
Mexican authorities requesting detailed information on the 
incident. These contacts may be made at the working level by 
law enforcement personnel assigned to the post or at the 
management level by that post's principal officer or consular 
general.
    The post is responsible for reporting details of each 
incident to its higher headquarters, the U.S. Embassy in Mexico 
City and the Department of State in Washington, D.C. Again, 
depending on the nature and seriousness, the embassy may decide 
to make representations to Government of Mexico authorities in 
Mexico City expressing our concern over the incident and 
requesting a Mexican Government investigation.
    The Department of State, through its Office of Mexican 
Affairs within the Bureau of Western Hemisphere Affairs may 
also communicate with the Mexican Embassy in Washington about 
an incursion incident. In all cases, the Department of State 
coordinates and communicates with its counterparts at all 
levels within the Department of Homeland Security when these 
incursions occur.
    Our working relationship with the Drug Enforcement Agency, 
or DEA, on border incursions is as close as it is with the DHS. 
DEA has an office within our embassy in Mexico City that 
coordinates its activities throughout Mexico and maintains 
branch offices at most, but not all, of the Department of 
State's five border posts in Mexico.
    The DEA operates in Mexico as part of the U.S. Government's 
country team under the authority of the U.S. ambassador, who is 
the President's personal representative to the Government of 
Mexico. The DEA offices and border posts are likewise under the 
authority of the ambassador's delegate at that post, the post's 
consul general or principal officer.
    In practical terms this means information developed through 
DEA sources that has any potential impact on U.S. national 
security, such as incursions across the border, is shared 
quickly not only with DEA's own headquarters, but with that 
post's senior leadership as well. This is communicated up the 
Department of State chain. At all posts in Mexico where there 
is a DEA presence there is close and productive communication 
and coordination with the Department of State senior 
leadership.
    The Department of State learned about the incursion 
incident on January 23 through Federal law enforcement 
entities, our consular general across from El Paso, and media 
sources. Once enough details of the incident were compiled by 
the embassy in Mexico City and in the Department's Office of 
Mexican Affairs in Washington, it was quickly decided that this 
was a serious incursion that required investigation. To this 
end, the Department took the unusual step of delivering 
identical diplomatic notes to both the Mexican Secretary of 
Foreign Relations in Mexico City and the Mexican Embassy in 
D.C., requesting an immediate investigation into this incident.
    In a cover letter to the Mexican Secretary for Foreign 
Relations, U.S. Ambassador Garza emphasized the seriousness and 
our concern over the elevated level of violence all along the 
border. The Government of Mexico promised a full investigation 
into this incident, and on January 31 Mexican authorities 
visited the site of the January 23 incursion as part of their 
review of the situation.
    On February 3 the Mexican army chief and attorney general 
announced at a press conference in Mexico City that the persons 
involved in the incursion were not members of the Mexican 
military, but rather known members of a narcotics trafficking 
ring. The Mexican attorney general further stated his 
department would continue a criminal investigation into that 
incursion.
    In conclusion, the Department of State works as part of the 
U.S. Government team with the Department of Homeland Security 
and DEA in strengthening the security of the United States 
borders. We will continue our active and ongoing dialogue with 
the Government of Mexico in securing our shared border.
    Thank you for this opportunity to speak with you, sir. I 
would be glad to answer any questions you may have.
    [The statement of Ms. Whitaker follows:]

              Prepared Statement of Elizabeth A. Whitaker

    Chairman McCaul and distinguished Committee Members: My name is 
Elizabeth Whitaker, and I am the Deputy Assistant Secretary of State 
for Mexico, Canada and Public Diplomacy in the Bureau of Western 
Hemisphere Affairs of the Department of State. It is a pleasure to 
appear before you to discuss recent incidents along our southern 
border, and specifically to discuss the January 23 incursion into 
Hudspeth County, Texas east of El Paso. I am also pleased to be here 
with my colleague, Chief Aguilar of the U.S. Border Patrol, the 
organization with the primary responsibility within the Department of 
Homeland Security for responding to incursions across our borders.
    It is safe to say that our working relationship with our partners 
in Mexico is excellent, and this relationship is a critical one. This 
is not to say that we do not continue to have significant challenges 
and issues with the Mexican government related to the border we share.
    In response, the Department of State has established several 
mechanisms through which we regularly communicate and coordinate with 
Mexican authorities at all governmental levels, and in this way seek to 
prevent future incursions. These mechanisms include:
        <bullet> Border Liaison Mechanism (BLM) meetings--These 
        meetings are held by each of the Department of State's border 
        posts two to four times a year. They bring together U.S. and 
        Mexican diplomatic, law enforcement and other government 
        personnel from all along both sides of the border to discuss 
        issues requiring operational and policy coordination. These 
        meetings allow our diplomats on the border, as well as U.S. law 
        enforcement officers, to get to personally know their Mexican 
        counterparts.
        <bullet> Bi-National Commission (BNC) meetings--These annual 
        meetings between the U.S. and Mexican governments are co-hosted 
        by the Secretary of State and the Mexican Minister of Foreign 
        Relations, and include Cabinet-level officials from both 
        governments. Three working groups related to border security, 
        migration and law enforcement meet throughout the year as part 
        of the BNC process: The Border Security and Cooperation Group, 
        the Migration and Consular Affairs Group, and the Law 
        Enforcement/Counternarcotics Working Group. The BNC fosters 
        enhanced government-to-government communication and liaison, 
        and in this way helps to prevent future border incursions.
        <bullet> The Senior Law Enforcement Plenary (SLEP) brings 
        together senior law enforcement policymakers semi-annually to 
        discuss law enforcement issues, including anti-narcotics, 
        organized crime, and trafficking in persons. SLEP also 
        identifies those issues that are to be raised bilaterally at 
        the cabinet-level through the BNC. The forum allows senior 
        federal law enforcement policymakers from both governments to 
        get to know each other and improve working relations.
        <bullet> In addition to these periodic meetings, both the 
        Department of State and U.S. law enforcement agencies meet with 
        our Mexican counterparts on many specific issues throughout the 
        year.
    As you are aware, the primary responsibility for security of our 
southern border rests with the Department of Homeland Security, but the 
Department of State plays an important supporting role. That is why I 
am pleased to appear before you with my colleague from Homeland 
Security, Chief Aguilar. The Department of State shares the concern of 
DHS with respect to border incursions, especially those involving 
organized criminal networks. We take each and every border incursion 
seriously and actively work with our colleagues in DHS and the 
Government of Mexico to investigate and respond to each and every 
reported incident. Further, through the Security and Prosperity 
Partnership, the Departments of State and Homeland Security are working 
cooperatively to implement the mutually-beneficial agreed upon 
initiatives to secure the border and reduce these types of incidents 
from occurring in the future.
    I would like to speak briefly about how the Department of State is 
organized to deal with border issues. The Department of State has five 
``posts'' or diplomatic missions along the almost 2000 mile border 
between the U.S. and Mexico. Starting from east to west these posts are 
located in the Mexican border cities of: Matamoros, Nuevo Laredo, 
Ciudad Juarez, across the border from Texas; Nogales, across the border 
from Arizona; and Tijuana. These posts each have responsibility for a 
section of the border on the Mexican side as part of its ``consular 
district.'' Generally these posts learn of border incursions into the 
U.S. by Mexicans from their consular districts from U.S. law 
enforcement authorities that deal with or are alerted to the incursion 
either at the local, state or federal levels.
    Depending on the nature and seriousness of the incursion into the 
U.S., the post contacts Mexican authorities, requesting detailed 
information on the incident. These contacts may be made at the working 
level by law enforcement personnel assigned to the post, or at the 
management level by that post's Principal Officer or Consul General.
    The post is responsible for reporting details of the incident to 
its higher headquarters--the U.S. Embassy in Mexico City, and the 
Department of State in Washington, DC. Again, depending on the nature 
and seriousness of the incursion, the Embassy may decide to make 
representations to Government of Mexico authorities in Mexico City, 
expressing its concern over the incident and requesting a Mexican 
government investigation The Department of State, through its Office of 
Mexican Affairs within the Bureau of Western Hemisphere Affairs, may 
also communicate with the Mexican Embassy in Washington, DC about an 
incursion incident.
    In all cases, the Department of State coordinates and communicates 
with its counterparts at all levels within the Department of Homeland 
Security when these incursions occur.
    Our working relationship with the Drug Enforcement Agency on border 
incursions is as close as it is with DHS. The DEA has an office within 
our Embassy in Mexico City that coordinates its activities throughout 
Mexico, and maintains branch offices at most, but not all, of the 
Department of State's five border posts. The DEA operates in Mexico as 
part of the U.S. Government's Country Team, under the authority of the 
U.S. Ambassador, who is the President's personal representative to the 
Government of Mexico. The DEA offices in border posts are likewise 
under the authority of the Ambassador's delegate at that location, the 
post's Consul General or Principal Officer. In practical terms this 
means that information developed through DEA sources that has any 
potential impact on U.S. national security, such as incursions across 
the border, is shared quickly not only with DEA's own headquarters, but 
with that post's senior leadership as well. This information is then 
communicated up the Department of State chain. At all posts in Mexico 
where there is a DEA presence, there is close and productive 
communication and coordination with Department of State senior 
leadership.
    The Department of State learned about the incursion incident in 
Hudspeth County, Texas on January 23 through federal law enforcement 
entities, our Consulate General in Ciudad Juarez across from El Paso, 
Texas, and media sources. Once enough details of the incident were 
compiled by the Embassy in Mexico City and in the Department's Office 
of Mexican Affairs in Washington, it was quickly decided that this was 
a serious incursion that required investigation. To this end the 
Department took the unusual step of delivering identical diplomatic 
notes to both the Mexican Secretariat of Foreign Relations in Mexico 
City and to the Mexican Embassy in Washington, DC, requesting an 
immediate investigation into this incident. In a cover letter to the 
Mexican Secretary for Foreign Relations, U.S. Ambassador Garza 
emphasized the seriousness of this incident and our concern over the 
elevated level of violence all along the border. The Government of 
Mexico promised a full investigation into this incident, and on January 
31 Mexican authorities visited the site of the January 23 incursion as 
part of their review of the situation. On February 3, the Mexican Army 
Chief and Attorney General announced at a press conference in Mexico 
City that the persons involved in the incursion were not members of the 
Mexican military but rather known members of a narcotrafficking ring. 
The Mexican Attorney General further stated that his department would 
continue a criminal investigation into the incursion.
    In conclusion, the Department of State works as part of the U.S. 
Government team with the Department of Homeland Security and DEA in 
strengthening the security of the United States' borders. We will also 
continue our active and on-going dialogue with the Government of Mexico 
in securing our shared border.
    Thank you for this opportunity to speak with you. I would be happy 
to answer any questions you might have.

    Mr. McCaul. The Chair recognizes the ranking member, Mr. 
Etheridge.
    Mr. Etheridge. Mr. Chairman, I ask for unanimous consent 
Mr. Reyes be allowed to sit on the panel with us today.
    Mr. McCaul. Without objection, so ordered.
    The Chair now recognizes Mr. Aguilar for his testimony.

 STATEMENT OF DAVID AGUILAR, CHIEF, BORDER PATROL, CUSTOMS AND 
       BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Chief Aguilar. Good afternoon, Chairman McCaul, Ranking 
Member Etheridge, Congressman Pearce and Congressman Reyes. 
Good afternoon. I have to say having been born and raised in 
south Texas, I feel right at home with all these Texas 
sheriffs, so it is good to be here.
    My name is David Aguilar and I am the national chief of the 
U.S. Border Patrol. It is my honor and privilege to be here 
today to testify on behalf of the men and women of Customs and 
Border Protection and DHS. I am especially pleased to be here 
today to testify on our shared interest of the security of our 
Nation, safety of our communities, and the safety of our 
officers as they patrol the borders of our country.
    Mr. McCaul. Can you pull the microphone a little closer?
    Chief Aguilar. I welcome the opportunity to testify not 
only on the subject of incursions, but also as to how this 
subject fits within the broader context of border violence and 
threats our officers face in their efforts to secure our 
country's borders every day.
    The United States Border Patrol is responsible for 
patrolling, securing and protecting our Nation's borders 
between the ports of entry. The dynamics of illegal immigration 
and illegal narcotics trafficking are such that criminal 
organizations typically seek out border areas that will support 
their illegal border smuggling efforts. The organizations will 
look to base their staging, stashing and jump-off points into 
the United States at locations that have the infrastructure to 
support their smuggling activities.
    Smugglers have historically exploited urban and populated 
areas along the border. While we have made great strides in 
increasing the levels of control along our border's urban 
areas, we are continuing to resource and incrementally gain 
greater control of the rural areas of our border with Mexico. 
The rural areas pose unique challenges. Vastness, remoteness, 
accessibility, and mobility are but a few of the major 
challenges that we face in patrolling and protecting our 
Nation's rural borders.
    A trend that has developed as we continue to expand our 
control of the borders is a dramatic increase in border 
violence against our agents. Violence has always been a part of 
the environment in which the men and women of the Border Patrol 
operate and is recognized as an inherent part of securing our 
Nation's borders.
    In fiscal year 2005, we experienced 778 assaults against 
our officers, a 108 percent increase from the previous year. 
Through January 31 of this fiscal year we have experienced 191 
assaults. I attribute this increase in violence to the fact 
that the Border Patrol's achievements in gaining greater and 
expanded control of our borders has resulted in a greater 
reluctance of entrenched criminal organizations to give up 
areas in which they have either historically operated, or they 
are reluctant to give up areas where they have reestablished 
themselves as a reaction to our increased urban enforcement 
areas that have impacted upon them.
    Our border with Mexico is a long, vast and, in many cases, 
a very remote, sometimes unmarked and poorly delineated border. 
We continue to increase deployments into remote areas to 
counter and, resources allowing, anticipate criminal 
organizations' movements. The Government of Mexico is deploying 
albeit limited resources in comparison to ours into some of 
these remote areas within their country.
    The reality along our border with Mexico is that there have 
been incursions into Mexico by Border Patrol and incursions 
into the United States by Government of Mexico entities. In 
those instances where Border Patrol has accidentally incurred 
onto Mexican territory, the notifications and resolutions have 
been quick and low key through established protocols and 
relationships at the local and national levels.
    Border incursions attributed to Government of Mexico 
entities into the United States have occurred in urban and 
rural areas of operation. This is not a new phenomenon, and 
when it does occur, it is a situation that is not taken lightly 
and is of high concern to DHS and CBP. We recognize these have 
a very high potential for serious consequences.
    In 2001, we reported the highest number of these types of 
incursions, a total of 42. Last fiscal year we recorded 19. 
This fiscal year we have recorded seven incursions through 
January 31.
    We have worked with and urge the Government of Mexico in 
the strongest terms and at the highest levels to investigate 
and do everything possible to mitigate and keep these incidents 
from occurring. We have received assurances from the Government 
of Mexico that they too take these incidents very seriously, 
recognize the potential for serious international consequences, 
and they are taking definitive actions to address them. In the 
area of Fort Hancock, Texas, we have now seen Mexican soldiers 
and representatives from the PGR working on the south side of 
Neely's Crossing for investigative purposes.
    Our chief patrol agents are reaching out and meeting with 
Mexican military counterparts at the general rank levels to 
better coordinate enforcement efforts and responsibilities 
along our Nation's borders. The Mexican federal preventive 
police has deployed approximately 300 officers in an effort to 
curtail border violence from Tijuana to Mexicali, and the PGR 
is now working in coordination with the Border Patrol sector 
chiefs in San Diego, Laredo, and Rio Grande Valley sectors to 
target prosecution and deterrence efforts along our Nation's 
borders.
    Our governments are jointly working on the targeting of 
smugglers of humans at and between the ports of entry through 
an innovative efforts called OASISS. Under this program 
smugglers and guides are being prosecuted in Mexico for human 
smuggling and endangerment crimes committed in the U.S. against 
Mexican citizens, based on evidence secured by U.S. officers.
    The Mexican Government is working very closely with us on 
what we have seen as an increasing threat, the use of tunnels 
to burrow under our increasing enforcement efforts. We have 
seen definitive actions taken on the part of the Mexican 
Government to address these international concerns.
    Mr. Chairman, I do not want in any way to minimize the 
seriousness of each and every one of these incursion incidents, 
but I also do not want to leave the impression that our borders 
are under siege by Government of Mexico entities or individuals 
representing--attempting to pass themselves off as Government 
of Mexico representatives. In those instances where individuals 
have been observed in illegal activity, regardless of their 
apparel, equipment or mode of transportation, they are 
criminals. They are criminals that both countries must do 
everything we can to do to stop them from exploiting our 
borders, making communities unsafe and detracting from our 
ability to protect America's borders from those that would 
bring harm to our homeland.
    Likewise, I urge us not to allow the high media profile of 
an incursion incident to cause us to lose sight of the everyday 
threats our frontline officers and agents face on the border in 
the form of rockings, assaults, shootings, vehicular assaults.
    Mr. Chairman, I understand that at this time you have 
generously given us permission to show a very short video to 
the subcommittee on some of these threats. I would appreciate 
that opportunity, sir.
    Mr. McCaul. Without objection, so ordered.
    Chief Aguilar. What is going to be displayed here, Mr. 
Chairman, is a short video of about 2 minutes. The basis for 
this is to depict the border violence that our officers face 
every day on the border.
    The first couple of shots will depict what we refer to as 
``rockings'' coming at our officers from across the border, 
from Mexico into the United States. You should be able to hear 
also the radio communications that are occurring between the 
officers and the dispatchers.
    One of the things I have to point out is, the American 
public, when they hear about rockings, sometimes think these 
are pebbles that are being thrown and lobbed at our officers. 
You will also see some pictures of the injuries. These are the 
individuals in Mexico, our officers.
    [Video presented.]
    Chief Aguilar. Our officers having to revert to shields.
    I believe this one you are seeing here is in California. 
This is taken by a remote video camera system. This is a shot 
of a Border Patrol vehicle, this is the interior, and that is 
blood belonging to an officer. That is the officer. That is the 
size of the rock that hit that officer.
    Now this is taken from the inside of a vehicle. Our officer 
had a video camera in what we call a ``war wagon.'' Those are 
bars across our windows. This is Yuma, Arizona. This is a load 
vehicle, loaded with aliens, that actually rams a tribal police 
unit. That is Border Patrol. There were 19 people in the 
vehicle, including two minors and a pregnant female. You will 
shortly see a Border Patrol helicopter up in this part.
    We did apprehend this individual. Thank you.
    Mr. Chairman, technology, tactical infrastructure and 
personnel are the answers to securing our borders. The 
Secretary recently announced DHS's secure border initiative, 
known as SBInet. I am confident that this innovative and 
comprehensive approach to our resourcing needs will make our 
country's borders safer and secure.
    I thank you, Mr. Chairman, for this opportunity and look 
forward to answering any questions that you or the committee 
may have of me. Thank you.
    [The statement of Chief Aguilar follows:]

                  Prepared Statement of David Aguilar

    Chairman McCaul and distinguished committee members: My name is 
David Aguilar, and I am the Chief of the Border Patrol, a component of 
U.S. Customs and Border Protection (CBP) within the Department of 
Homeland Security (DHS). I am honored to appear on behalf of CBP and 
the Border Patrol. Like you, we have no higher priority than the safety 
of U.S. citizens, as well as our dedicated agents that serve along the 
border. CBP remains steadfast in its commitment to securing our 
borders. It is a matter of national security, and through efforts like 
the Secure Border Initiative and the Arizona Border Control Initiative, 
we are consistently minimizing and shutting down vulnerabilities at the 
border. Criminal networks present a serious threat to border security 
and their lawlessness is not going unchecked. We take very seriously 
and investigate fully any alleged incident of criminal activity, 
threats against our agents or possible incursions.
    I would like to begin by giving you a brief overview of our agency 
and mission.
    CBP acts as the guardian of the Nation's borders, safeguarding the 
homeland by protecting the American public against terrorists and the 
instruments of terrorism, while enforcing the laws of the United States 
and fostering the Nation's economic security through lawful travel and 
trade. Within CBP's larger mission, the Border Patrol's time-honored 
duty of interdicting illegal aliens and drugs and those who attempt to 
smuggle them across our borders between the Ports of Entry remains a 
priority. We are concerned that terrorists and violent criminals may 
exploit smuggling routes to enter the United States illegally. Reducing 
illegal migration across our borders will help mitigate the danger of 
possible attempts by terrorists or violent criminals to enter our 
country.
    As Secretary Chertoff noted in his June 9 statement before the 
Government Reform Committee, DHS has established a crosscutting 
initiative to protect the southwest border. It encompasses the efforts 
of several DHS agencies, and each agency plays an integral role. The 
operations themselves involve patrolling the border, apprehending 
illegal border crossers and seizing contraband, generating, sharing and 
analyzing information, detaining and removing illegal aliens, 
investigating smuggling organizations, and deterring illegal activity. 
One of the critical benefits of the creation of DHS is that the 
capability to take all of these enforcement actions along the continuum 
of border security now resides in one department within the Executive 
Branch.
    With regard to CBP, the Border Patrol's National Strategy has made 
a centralized chain of command a priority and has increased the 
effectiveness of our agents by using intelligence-driven operations to 
deploy our resources. The Strategy recognizes that border awareness and 
cooperation with our law enforcement partners is critical. Partnerships 
with Immigration and Customs Enforcement (ICE), Department of the 
Interior, Drug Enforcement Administration (DEA), Federal Bureau of 
Investigation (FBI), Department of Transportation, as well as other 
interagency partners, state, local, and tribal law enforcement agencies 
and state Homeland Security offices play a vital role in collecting and 
disseminating information and tactical intelligence that assists in a 
quick and flexible responses, which are essential to mission success.
    I have been asked to speak about border incursions by military and 
law enforcement personnel. Although decreasing in frequency, incursions 
into U.S. territory by units of Mexican military and law enforcement 
personnel have occurred. The reverse is also true--there have been 
incidents where U.S. Border Patrol agents have accidentally strayed 
into Mexico. These incidents often take place in remote areas where the 
international border is unmarked or unclear. Each and every incursion 
is of the greatest concern to the Border Patrol. Each individual 
incursion requires and receives an in-depth review.
    From FY 2001 through the end of FY 2005, there have been 144 
documented incursions into the United States. The Border Patrol 
definition of an incursion is identified as the unauthorized crossing 
of the international border by individuals who are, or appear to be, 
Mexican government personnel, whether intentional or not. Incursions 
have declined by more than 50% since 2001, and we have open dialogue 
with the Government of Mexico to continue to reduce the frequency of 
incursions. Although a declining trend, all incursions have the 
potential to result in violence, which is of significant concern to 
CBP.
    Most incursion cases have been resolved at the field level by U.S. 
and Mexican authorities without the need for high-level diplomatic 
dialogue. Border Patrol does not have evidence of systematic incursions 
of the Nation's borders by Mexican military personnel.
    At the local level, our enforcement leadership is using various 
mechanisms to establish periodic dialogue and interaction with Mexican 
police and military leaders to resolve and prevent accidental 
incursions. Protocols are in place throughout the southwestern border 
to handle incursions at a local level and to also implement measures to 
prevent future events. These protocols involve maintaining frequent 
communication with their counterparts within Mexican agencies, exchange 
of area maps, and briefings on the local terrain for units new to the 
area.
    We are, indeed, aware of criminal organizations that wear military-
style uniforms, use military-style equipment and weapons, and employ 
military-type vehicles and tactics while conducting illegal activity in 
border areas. Trafficking of persons and contraband constitutes a major 
threat, regardless of the perpetrators' identity. Border Patrol does 
not have proof that recent trafficking incidents we have seen involving 
individuals dressed in military or law enforcement attire were in fact 
Mexican Government personnel. However, we address each of these 
incidents as the serious criminal acts that they are, and these cases 
are actively pursued.
    I recently returned from a visit with our agents on the 
southwestern border. During this trip, I met with our agents, Mexican 
Government officials and others in a continued effort to address 
critical border issues, including incursions. We have found that by 
working in partnership with Mexican officials we are able to lessen 
tensions and reduce the likelihood of an unfortunate incident. Mexican 
officials work with us on a daily basis in regards to our priority 
mission against terrorism. I believe that we can build on our efforts 
so far to make progress with this current problem.
    DHS remains focused on monitoring and responding to these criminal 
threats and will continue to assess, develop, and deploy the 
appropriate mix of technology, personnel, and infrastructure to gain, 
maintain, and expand coverage of the border in an effort to use our 
resources in the most efficient fashion. As an example, the use of 
technology, including the expansion of camera systems, biometrics, 
sensors, air assets, and improving communications systems can provide 
the force multiplier that the Border Patrol needs to be more effective. 
Tactical infrastructure improvements will greatly assist DHS' ability 
to deter and respond to illegal activity crossing our border. Examples 
of tactical infrastructure include: strategically-placed fencing, 
vehicle barriers, all-weather access roads, land clearings, and bridge-
crossings. The ongoing efforts of the Secure Border Initiative will 
further enhance our border integrity through the targeted deployment of 
assets, which will assist in preventing future incursions.
    CBP's Border Patrol is the first line of defense in DHS' multi-
agency effort to dismantle the violent smuggling organizations that 
threaten the American quality of life. This line of defense does come 
at a price, and our dedicated agents face significant risks. In fact, 
192 Border Patrol Agents have been assaulted already in FY 2006. These 
statistics continue to reflect an upward trend; in FY 2005, 778 agents 
were assaulted, more than doubling the FY 2004 total of 374.
    As we continue to bring larger areas of the border under 
operational control, we can expect spikes in border violence as border 
criminals discover they can no longer operate with impunity and are 
prevented from using the border for their criminal activities. These 
violent reactions to our increased law enforcement effectiveness should 
abate, however, as we solidify operational control in a new area. Our 
agents are trained, equipped and instructed on how to handle border 
violence as well as incursions. We will continue to work to advance 
public safety and the legitimate flow of commerce along our border.
    Recognizing that we cannot control our borders by merely focusing 
on the immediate border, our Border Patrol strategy incorporates a 
``defense in depth'' approach including detection, rapid response, and 
the use of checkpoints away from the border. These checkpoints are 
critical to our patrol efforts, for they deny major routes of egress 
from the borders to smugglers intent on delivering people, drugs, and 
other contraband into the interior of the United States. Permanent 
checkpoints allow the Border Patrol to establish an important second 
layer of defense and help deter illegal entries through improved 
enforcement.
    The Border Patrol is also working with ICE, other DHS components, 
and the Department of Justice on an integrated approach to dismantling 
the criminal groups that perpetuate cross-order criminal activity. 
Border Patrol and ICE will partner in the Department's newly 
established Border Enforcement and Security Task Forces (BESTs), which 
build on the Department's experiences fighting violent cross-border 
crime in Laredo, Texas, during Operation Black Jack. Operation Black 
Jack has been a focused effort to coordinate ICE, CBP, DEA, FBI, Bureau 
of Alcohol Tobacco Firearms and Explosives, U.S. Marshals Service, and 
other state and local law enforcement agencies with significant support 
from the United States Attorney's Office and the District Attorney's 
Office. BESTs will focus on every element of the enforcement process, 
from interdiction to prosecution and removal, with the goal of 
eliminating the top leadership and supporting infrastructure that 
sustains these cross-border organizations. They will leverage federal, 
state, tribal, local, and intelligence entities to focus resources on 
identifying and combating emerging or existing threats.
    Another example of how interagency efforts benefit this layered 
defense is the partnership between DHS and the Department of Justice to 
develop the IDENT/IAFIS integrated workstation, which captures a single 
set of fingerprints and submits them simultaneously to DHS' Automated 
Biometric Identification System (IDENT) and DOJ's Integrated Automated 
Fingerprint Identification System (IAFIS) for identity checks. With 
immediate access to IAFIS nationwide, Border Patrol agents have 
identified thousands of egregious offenders in the past year, including 
513 homicide suspects, 648 sex crime suspects, 6439 subjects previously 
charged or convicted of aggravated assault, and 11,844 suspects 
involved in dangerous drugs or trafficking, which otherwise may have 
gone undetected. With 31,414 major crime hits and 120,268 total IAFIS 
hits through fiscal year 2005, we have made significant strides towards 
improving national security and greatly enhancing our ability to secure 
our Nation's borders. This important initiative was made possible 
through the joint efforts of the US-VISIT Program, which provided the 
funding and overall project coordination, and CBP, which installed the 
workstations and conducted training.
    The United States continues to experience a rising influx of 
nationals other than Mexicans (OTMs) illegally entering the country. 
OTM apprehensions totaled 165,175 for FY05, whereas FY 04's number of 
OTM apprehensions was 75,389. The 119% increase in the apprehension of 
OTM illegal entrant aliens has created additional challenges in 
bringing a level of operational control to the border. In response, DHS 
expanded the use of Expedited Removal (ER) proceedings for OTMs across 
the entire border. ER proceedings, unlike section 240 removal hearings 
between apprehension and removal, shorten the duration of time between 
apprehension and removal. A significant increase in bed space was 
allocated to support this expansion. Brazilian nationals were the 
initial focus for the ER program, and the influx of Brazilian nationals 
across the southwest border has been significantly reduced. ER has 
proven to be an effective enforcement tool for the southwest border.
    Both DHS and Mexican authorities have a shared interest in 
addressing assaults on law enforcement personnel, increased 
lawlessness, and the victimization of innocent people occurring in 
border areas. In response to the recent incursion and the apparent 
escalation in violence across the border, the Department and the 
Government of Mexico have been engaging in renewed discussions on 
collaborative border security and safety initiatives.
    For example, CBP is working with the Government of Mexico on 
various initiatives to increase the security and safety of our shared 
border including:
        <bullet> Information Sharing: Border Patrol Liaison Program 
        units share information related to terrorist threats and 
        special interest aliens with the Government of Mexico. This 
        effort has resulted in 468 arrests of non-Mexicans in violation 
        of Mexican immigration laws. We know that Mexican authorities 
        have identified many criminal organizations and issued multiple 
        arrest warrants for alien smuggling.
        <bullet> Operation Against Smugglers Initiative on Safety and 
        Security (OASISS): In an effort to reduce the increasing number 
        of human smugglers operating along the southwest border, CBP, 
        in cooperation with the Government of Mexico, implemented 
        OASISS, a bilateral Alien Smuggler Prosecutions Program. The 
        OASISS program expands upon previous efforts to identify and 
        prosecute violent human smugglers and save the lives of 
        migrants who are put at risk by smuggling organizations.
        <bullet> Cooperative Enforcement Efforts: In response to the 
        escalating border violence, in coordination with CBP, the 
        Government of Mexico has deployed several hundred enforcement 
        and prosecutorial personnel from the PGR and PFP. In addition, 
        the Government of Mexico has also deployed over 300 Mexican 
        state police officers to target criminal organizations, human 
        smugglers, and transnational gangs. These deployments of 
        resources are to be based on assessments of existing border 
        security threats in the San Diego, Tucson, Laredo, and McAllen 
        areas.
        <bullet> Border Safety Initiative: As security and safety on 
        the border are inextricably linked, I would like to mention the 
        Border Patrol's ``Border Safety Initiative'' or BSI. In Fiscal 
        Year 2005, southwest border deaths increased by 41% (464 in 
        FY05 vs. 330 in FY04) and southwest border rescues have 
        increased by 91% (2570 in FY05 vs. 1347 in FY04). These 
        statistics indicate that a secure border will not only have an 
        important law enforcement component, but also yield the 
        humanitarian benefit of saving lives.
    The Border Patrol's objective is nothing less than securing 
operational control of the border. We recognize the challenges that lie 
ahead, which includes incursions and increasing violence, and the need 
for a comprehensive enforcement approach. Our national strategy gives 
us the overall framework to achieve our ambitious goal. It is a matter 
of national security, and through efforts like the Secure Border 
Initiative, Operation Stonegarden, and the Arizona Border Control 
Initiative, we are consistently minimizing and shutting down 
vulnerabilities at the border. We face these challenges every day with 
vigilance, dedication to service, and integrity as we work to 
strengthen national security and protect America and its citizens. I 
would like to thank you for the opportunity to present this testimony 
today and for your support of CBP and DHS. I would be pleased to 
respond to any questions that you might have at this time.

    Mr. McCaul. I want to thank you for your testimony. I have 
a few questions.
    Those images are disturbing and they are graphic. They 
highlight the seriousness of what is going on at the border. I 
can tell you that Congress is very concerned about the violence 
on the border and the incursions that have occurred. They 
represent not only an attack on law enforcement, but on our 
sovereignty as a Nation every day, and I know you live with 
this. I know the sheriffs in the room live with this.
    I have also a photograph that was taken at Laredo, Texas, 
just last month, on December 28th, which shows Mexicans firing 
upon our United States law enforcement, taking shots 
essentially. Since this incident, the same assailant from these 
pictures has been tied to three other incidents involving shots 
fired at CBP Border Patrol agents.
    It just seems to me like it is getting worse, not better, 
and the cartels are getting more dangerous south of the border. 
And according to your written testimony, there are accounts of 
criminal organizations wearing military-style uniforms with 
high-powered, military-issued weapons and vehicles, and their 
tactics are similar to military.
    What is going on and what can we do in the Congress to fix 
it?
    Chief Aguilar. What is going on, Mr. Chairman, is that the 
cartels are, in fact, utilizing equipment, firearms and 
personnel that had been trained in military tactics to 
facilitate their smuggling operations, especially in the areas 
where we are now operating. We refer to those areas as very 
rural areas because Border Patrol has been successful and 
achieved certain levels of control with urban areas of 
operation along the southwest border with Mexico. In these very 
remote areas, this is where these organizations are starting to 
show up more and more.
    As to the latter part of your question, sir, I think the 
Congress and the administration is moving forth with what I 
talked about, the SBI Net, which is a comprehensive approach to 
resourcing our needs, which is personnel, technology and 
infrastructure, and our responsibility would then be rapid 
mobility of those resources to place where the need arises.
    Mr. McCaul. I think after 9/11 we all learned from that 
example that what is important--and I worked on both sides. I 
worked in the Justice Department, I worked as Deputy Attorney 
General for the State of Texas, but what is important is that 
we work together, we communicate together at the Federal, State 
and local levels.
    Can you talk a little bit about initiatives, because when I 
go down there, when I see the videotape that we will see later, 
what I see are State troopers and sheriffs down there, and 
Border Patrol, but what are you doing to help coordinate that 
and facilitate that cooperation that is so important?
    Chief Aguilar. Our chief patrol agents run our sectors' 
operations. One of the most critical things that they do is the 
liaison and relationship-building they have with the State, 
local and tribal authorities. It is only through partnerships, 
collaborations and collective efforts that we are going to make 
more rapid advances against these criminal organizations.
    Working in unison, working in a very focused manner and 
taking operations such as Operation Linebacker, Operation Stone 
Garden, where grant money given to the States is applied in 
such a way that the sheriffs and the State and local entities 
are working in direct coordination with the Border Patrol 
specific to border security. We enjoy a tremendous 
relationship.
    Everybody, I think, is strapped for resources, but we make 
the best of what we have by increasing those collaborative 
efforts.
    Mr. McCaul. As Chairman King mentioned, I filed an 
amendment to the border security bill that would free up 
Homeland Security grant dollars for that purpose, and I hope 
that is utilized.
    Ms. Whitaker, very quickly, there is an ongoing Federal 
investigation into the Neely's Crossing incident; is that 
correct?
    Ms. Whitaker. Yes, on the part of the Mexican Government.
    Mr. McCaul. You said this was a serious incident, according 
to your testimony.
    Ms. Whitaker. We consider this a serious incident, and that 
is why we sent diplomatic notes both here in Washington and 
also delivered them in Mexico.
    Mr. McCaul. You state that the Mexican Government has come 
forward and said these were not, in their opinion, Mexican 
military?
    Ms. Whitaker. Their investigation--again, I mentioned that 
they had returned to the scene of the January 23 incursion, 
they returned to that scene to investigate on the 31st of 
January. On February 3 they did announce indeed they had 
determined that these individuals were not members of the 
Mexican military, that they were actually known 
narcotraffickers, and the attorney general for the government 
has opened a criminal investigation in pursuit.
    Mr. McCaul. Has the administration formed any opinion as to 
whether or not this was, in fact--these individuals were 
Mexican military?
    Ms. Whitaker. I have would have to consult with my 
colleague, Chief Aguilar. DHS is certainly looking into this, 
but I don't know that we have a conclusion.
    Chief?
    Chief Aguilar. That would be correct, Mr. Chairman. There 
is an ongoing investigation being conducted by ICE and the FBI 
in coordination with the other authorities, but as far as I 
know, there is no conclusion to that yet.
    Mr. McCaul. If I can include, on meeting with the Mexican 
ambassador, he mentioned they have identified four of the 
individuals in the photographs taken by the Department of 
Public Safety and that when they are, hopefully, captured that 
they would make them available to United States law 
enforcement.
    The Chair now recognizes the ranking member, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Ms. Whitaker, in 2002 we signed the SMART border accord 
with Mexico and Canada. The accord with Mexico included 22 
specific points intended to improve cooperation and 
technological enhancements at the border.
    What progress has been made in addressing these points?
    And, secondly, is the Mexican Government doing enough to 
implement the Smart Border Accord?
    Ms. Whitaker. Mr. Etheridge, I think we do have some very 
good cooperation from the Government of Mexico, and I would 
like to give you a detailed answer on how we have--they have 
responded to the implementation of the Smart Border Accord. I 
would like to take that question back if I may and get you a 
written report.
    Mr. Etheridge. Would you make sure every member of this 
committee gets that?
    Ms. Whitaker. Absolutely.
    Mr. Etheridge. Mr. Aguilar, thank you for your testimony, 
and I join the chairman in, it is alarming some of the things 
we are hearing happening to our members of the Border Patrol. 
My question is this, though, as we look at it, it is obvious 
that we have a lot of open area; and as we pick up more patrol, 
pressures grow on the members of the patrol who act as Border 
Patrol.
    How many additional Border Patrol agents per year can you 
handle and how many total do you need?
    Chief Aguilar. The question of the total, sir, is probably 
going to be best answered very shortly as a part of the Secure 
Border Initiative.net program that is being looked at right 
now.
    As far as the actual--
    Mr. Etheridge. What date will that be available to the 
Members of Congress?
    Chief Aguilar. The integrator will be awarded at the end of 
this year whereby they will identify the number of personnel, 
the tactical infrastructure, and the technology that, melded 
together, in their best estimate, will give us what we need 
along the border.
    In the meantime, we are continuing to move forward. We are 
not at a standstill. We are building tactical infrastructure, 
applying technology, and we are hiring Border Patrol agents.
    Right now, the capacity of the Border Patrol Academy ranges 
from 1,700 and 2,000 agents per year that is flowed through the 
Border Patrol Academy.
    Mr. Etheridge. That is how many you can accept per year, 
trained, ready to do their job when they hit the ground?
    Chief Aguilar. Yes, sir.
    The one thing I would urge the members of this committee to 
bear in mind is, when they graduate out of the Border Patrol 
Academy, there is a maturation period that they go through; 
that when they hit the ground after graduating from the academy 
there is a period of on-the-job training and, of course, 
everything that goes with it which we approximate takes another 
12 months or so before they are able to be deployed because of 
the ruralness and vastness of the areas where we work.
    Mr. Etheridge. An additional question regarding this 
incident: Is there any evidence or are you uncovering evidence 
that would indicate that the drug cartel is using soldier-of-
fortune types to train their gangs?
    Chief Aguilar. We have received information, intelligence. 
To the degree that it is substantiated, I cannot testify that 
it is substantiated, but we have received information of that 
type of groups that are working with the drug cartel. So that 
type of information is there and something we are watching very 
carefully.
    Mr. Etheridge. Thank you. You mentioned earlier, both of 
you did, as relates on the informal and formal working. Let me 
ask you a question, Mr. Aguilar, in that regard.
    Is there a formal or informal mechanism or system in place 
to engage all Federal stakeholders? Because protecting our 
borders is a Federal responsibility. No question about that; we 
have to acknowledge that. That means Border Patrol, FBI, DEA, 
Immigration, Customs, State Department, et cetera.
    When a border incursion incident occurs, is there a 
mechanism that they come together and deal with that 
immediately?
    Chief Aguilar. Yes, sir. Probably the most rapid protocol, 
if you will, are the informal ones at the local levels where 
the chiefs of the Border Patrol reach out to their counterparts 
within DEA, FBI, ICE, and the American consul on the south 
side, and the Mexican consul.
    There are also relationships established with the Mexican 
military on the south side so we can immediately call them in, 
and some of the enforcement agencies on that side also.
    As to formal efforts, there are ongoing talks, if you will, 
and dialogue establishing those, yes.
    Mr. Etheridge. I know my time is almost over. One last 
point along this line because it is important, even though this 
is a Federal responsibility, we acknowledge that, to protect 
our borders.
    How would you characterize the Border Patrol's relationship 
with State and local law enforcement along our northern and 
southern borders? I think that is a critical piece and part of 
the issue here today.
    Chief Aguilar. Absolutely critical, and the way I would 
gauge it as an immediate past chief in the field of no more 
than 16 months ago, I would rate it as excellent. All of us are 
challenged because of the resources, but working relationships 
are very, very high.
    Mr. Etheridge. Thank you, Mr. Chairman. I look forward to 
the next round.
    Mr. McCaul. The Chair now recognizes Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman and Ranking Member 
Etheridge for the opportunity to sit on the committee today. I 
am the only member of Homeland Security, the full committee, 
that has a district on the actual border, and I agree with your 
opening statement that the border is in crisis.
    It was because of the situation that I invited the full 
Homeland Security Committee to the district of New Mexico in 
August, and we toured that 180-mile range and many times found 
a border that was completely untended. It is along that 
southern border into Mexico where the Border Patrol actually 
follows about 6 or 7 miles away from the border and patrols on 
Highway 9 because it is paved. And the Homeland Security 
Committee asked that question, but as of yet, people in that 
district reply that we have not gotten the Border Patrol up on 
the actual border.
    I think that our relationship with the Mexican Government 
is very key, but we have responsibilities on both sides of the 
border.
    I would--for my first question I would ask Ms. Whitaker, on 
page 2, paragraph 1, you use the phrase, ``depending on the 
nature and the substance of the incursion.'' ``What is this 
nature and this substance that is required, or justified in 
your agency's mind,'' that requires a diplomatic note or two 
diplomatic notes.
    Have any other incursions ever risen to the level to 
require diplomatic notes?
    Ms. Whitaker. I believe they have. I am happy to go back 
and verify that, but on occasion they have, yes.
    Mr. Pearce. Do those diplomatic notes ever request any 
actions on behalf of our friends in the Mexican government to 
rachet up or change or increase or improve the operations on 
their side?
    Ms. Whitaker. The notes will include a request for an 
investigation, and, as I noted in the exchange of notes at the 
most recent event, Ambassador Garza, our Ambassador in Mexico 
City, called the government of Mexico's attention to the fact 
that this was an increasing problem and a grave concern.
    Mr. Pearce. You all expressed concern. You never asked that 
the responses be upgraded.
    Ms. Whitaker. Absolutely. We asked that they pay attention 
to this and take it seriously and we look for concrete action 
on the part of the Mexicans.
    Mr. Pearce. And these diplomatic notes, when do you think 
the first one might have been sent?
    Ms. Whitaker. I believe the first was sent on the--
    Mr. Pearce. No, I mean previous. You said other incidents 
have risen to this level to require that. So how long have we 
been diplomatically--how long has your agency been talking with 
the Mexican government asking for them to please take a look?
    Ms. Whitaker. I will go back and check.
    Mr. Pearce. If you can provide that information, and if you 
can find out during that whole period from the first diplomatic 
note to the last how the response mechanism has changed from 
the southern border, it would be very handy.
    Ms. Whitaker. Certainly.
    Mr. Pearce. When you refer to the nature and substance, 
that tends to have a flavor that maybe there are insignificant 
instances, that not all instances rise to the level of 
diplomatic notes. What would cause an incident not to rise to 
that level?
    Ms. Whitaker. Well, I think what we have seen, and I will 
ask for Chief Aguilar to opine on this as well, many of these 
incidents are indeed resolved at the local level. It is when we 
have a level such as occurred on the 23rd that seems to rise 
beyond.
    Mr. Pearce. What was it about this one that caused it to 
ratchet up to the next level? Exactly how did it differ? What 
made it significant? I am still unclear myself.
    Ms. Whitaker. That is a good question. My guess would be 
that I think because of the violence involved, because of the 
reports that we got on a very quick basis from our people on 
the ground, also from law enforcement authorities, it also 
attracted a good deal of media attention later on in the day, 
and because of the chain of command, we have or the chain of 
communication with DHS and our consulate on the border, they 
said this is unusual, this is not something that is going to be 
resolved at the local level and it requires our attention.
    Mr. Pearce. Chief Aguilar, thank you for your testimony 
also. At page 2, at the very bottom of the page, you say that 
we have found that by working in partnership with Mexican 
officials, we are able to lessen tensions and reduce the 
likelihood of unfortunate incidents.
    That is a curious statement, because none of these 
incursions, we don't believe them to be involved with the 
Mexican government, and yet you say we can lessen tensions by 
working in partnership. So who is it that we are lessening 
tensions with?
    Chief Aguilar. Congressman Pearce, let me give you my 
personal experience as a chief on the border.
    Mr. Pearce. I just have 5 minutes. I think I am already--
    Chief Aguilar. I think this will answer it. Personal 
experience says when these instances occur that tensions rise 
dramatically, especially if there is a belief that it is 
Mexican military actually operating on the border or actually 
crossing across into the United States. In my experience, 
dealing with the three generals that operated south of me in 
the Tucson sector on a constant basis, being able to pick up 
the phone and say look, you are within the 2 kilometers that 
you have promised and you have a policy that you will not be 
in, that enables us to be preemptive.
    At the time when an incursion is believed to be 
responsibility of the Mexican military, having that person-to-
person relationship helps tremendously. We have seen these 
generals deployed literally aircraft within an hour of the 
incident. Within an hour of the incident within the Sonora 
Desert, that is quick. So it helps us continue working together 
in these very vast, very remote areas.
    Mr. Pearce. Thank you, Mr. Chairman. My time has elapsed.
    Mr. McCaul. Chief Aguilar, there were reports that 
indicated that Mexican Special Forces known as Zeta were 
trained by our military and then defected at some point from 
the Mexican Special Forces and joined the cartels. Do you have 
any information about that?
    Chief Aguilar. No, sir. The only information we have, as I 
stated earlier, is we have received reports of that. I don't 
know who they were trained by. The information that we have is 
that they were Special Forces, members of the Mexican military, 
supposedly deserters.
    Mr. McCaul. That would be a breach of trust certainly.
    Chief Aguilar. Yes, sir.
    Mr. McCaul. And trust is really what it is all about when 
you are working with a foreign government. There is a level of 
trust you have with a person on the other side and whether you 
can trust information given to them.
    I want to get to part of your statement, you said we are 
aware of criminal organizations that wear military style 
uniforms, use military style equipment and weapons and employ 
military-type vehicles and tactics while conducting illegal 
activities in border areas.
    To me, that is disturbing. Tracking of persons and 
contraband constitutes a major threat, regardless of the 
perpetrator's identity. I agree with that statement. Whether 
these were military or cartels dressed up like military, either 
scenario is not good for this country.
    You say Border Patrol does not have proof that recent 
trafficking incidents that we have seen involving individuals 
dressed as militarily were, in fact, Mexican government 
personnel.
    Of course, we didn't capture anybody at the Neely's 
Crossing, which would be the best evidence, so we don't know 
what the real situation was down there. Do you completely 
discount the fact that it was Mexican military?
    Chief Aguilar. We cannot discount it, sir, taking into 
account the equipment, the type of vehicles, the uniforms or 
the garb that they were wearing, but at the same time we have 
to be responsible in actually categorizing them, because we did 
not apprehend anybody. In the past, we have apprehended 
individuals dressed in that type of garb that have turned out 
not to be Mexican military. So we are taking the responsible 
course here.
    Mr. McCaul. Have we ever apprehended actual Mexican 
military on our side of the border?
    Chief Aguilar. We have detained, we have arrested, yes, 
Mexican military on our side of the border. Involved with 
narcotics, not to my knowledge.
    Mr. McCaul. Was that the Santa Teresa?
    Chief Aguilar. That is one of the incidents, yes, sir.
    Mr. McCaul. How many of those are there, to your knowledge?
    Chief Aguilar. There are several. I can get back to you 
with actual numbers.
    Mr. McCaul. Did any of those involve aiding and abetting 
drug traffickers?
    Chief Aguilar. Not that we are aware of, no, sir
    Mr. McCaul. Ms. Whitaker, what is the status at the State 
Department? What are you doing right now regarding the January 
23th Neely's Crossing?
    Ms. Whitaker. We have, indeed, received the diplomatic note 
today from the Mexican Ambassador in which it is a formal 
response back, tracking back to the press conference 
announcement last Friday. At this stage of the game, we wait, 
along with our DHS colleagues, to see what the Mexican Attorney 
General is able to find out. And we know that our colleagues on 
the law enforcement side are also pursuing their own 
investigation.
    Mr. McCaul. Well, I am very interested to see what ICE, I 
know they are the lead agency on this, what their investigation 
reveals. I know they are doing analysis on these photographs as 
well.
    Chief Aguilar, just a final point. The trust issue again is 
important. The corruption issue is important. We know that the 
military and police really don't make a whole lot of money. 
Bribery is an issue. That is why all these things cause great 
concern. Maybe it is not sanctioned by the government, and we 
don't know, and that is the purpose of this hearing, and we 
will have to investigate that fully and this committee will.
    But are there members of cartels with a lot of money 
bribing, buying off Mexican military or buying uniforms or 
Mexican military issued vehicles? Those are all issues that I 
think are appropriate to bring out at this hearing do you have 
any comments on that?
    Chief Aguilar. Not that I could actually testify to that we 
have solid intelligence or anything of that nature, sir. The 
only thing that we do have is that the cartels are employing 
these times of tactics, are employing and utilizing some of 
this equipment that we have attributed to military-like 
equipment and training.
    Mr. McCaul. Why would they wear military uniforms?
    Chief Aguilar. I can't answer that, sir. I don't know.
    Mr. McCaul. The ones that were apprehended, did they say 
why they were in uniforms, the individuals that you captured 
before?
    Chief Aguilar. Of course, when we apprehended the ones that 
were actual military members, not involved in narcotics 
trafficking, they were basically making the incursion while 
they were on duty, if you will.
    Mr. McCaul. How close do you observe the military getting 
to our international border?
    Chief Aguilar. Well, they have an internal policy that they 
will not operate within 2 kilometers of our border. They don't 
always hold to that. When we do spot them within 2 kilometers 
of our border, we immediately call the garrisons to advise 
them. The only time that they will be in that area is when they 
are in pursuit of a criminal organization, as they put it. We 
spot them often.
    Mr. McCaul. In 2002, I recently talked to an old friend of 
mine in the Justice Department, ICE was doing a surveillance, 
in 2002 between Hudspeth and El Paso County, the helicopter 
that was doing a drug surveillance mission spotted a Mexican 
military vehicle on the other side, and then not too long after 
that, saw members that appeared to be uniformed outside of the 
vehicle. And then, finally, a military uniformed officer that 
appeared to be Mexican crossing the Rio Grande.
    I guess, as you said, you know it happens sometimes. It is 
a concern. It is a concern for the State Department. It should 
be. We need to get a handle on this.
    I will now recognize the ranking member.
    Mr. Etheridge. Thank you, Mr. Chairman. One thing, this is 
a serious thing and I am reminded that we are training an awful 
lot of law enforcement officers in Iraq and we have no 
guarantee as we train those that they are going to be our 
friends, and some of them may very well be creating problems 
for our soldier in Afghanistan and Iraq. So there are no 
guarantees as we know, Mr. Chairman, as we deal with this. Even 
those we train, that they will be loyal to us.
    Mr. Aguilar, let me ask you a question. Do drug traffickers 
use vehicles painted to look like they belong to a U.S. agency, 
for example, a sheriff, a water service district, or to 
international border patrol and others, and if so what type and 
how many and where? That is important for us to know, because, 
obviously, they don't really care. They will look at the 
contraband into this country.
    Chief Aguilar. Yes, sir. They will try to assimilate into 
the legal population in many ways. We have actually apprehended 
counterfeit border patrol vehicles. While I was chief in Tucson 
there was two incidents of that type. It was only the border 
patrol agents that saw the vehicle and recognized them as 
counterfeit, that somebody else may not have noticed that. They 
were loaded with dope.
    We have apprehended Fed Ex type counterfeit vehicles, 
municipal type vehicles, Sheriff's deputies vehicles that are 
counterfeit painted. It goes on and on. Yes, sir, it does 
happen on an ongoing basis.
    Mr. Etheridge. In your testimony you noted that the IDENT/
IAFIS system has allowed Border Patrol officials to identify 
thousands of egregious offenders in the past year, including 
513 homicide suspects and 648 sexual criminal offenders. You 
also noted the increase in OTM apprehensions.
    What impact has the continuing reduction in the State Alien 
Assistance Program, or SAAP, funding had on the security of the 
southwest border States, especially now that you are more 
successful in identifying some of the criminal aliens involved 
in incidents?
    Chief Aguilar. I would hesitate to speak on behalf of the 
state and locals, but I know that the apprehensions we make of 
these criminal aliens has a bearing on the State and locals, on 
the impact we make on them. Upwards of 98 percent of the 1.1 
million people that we apprehend coming illegally into this 
country are run through the IAFIS and IDENT Program. It is 
through these programs that we are identifying these criminal 
aliens. It is through these programs that we are able to turn 
over these criminal aliens, especially when there is a local 
warrant on them, to the State and locals. But I could not give 
you a cost to them at this time.
    Mr. Etheridge. Last month, a fellow by the name of Noel, I 
believe it is pronounced Exenia, a drug trafficker, admitted to 
smuggling 20 men between the ages of 25 and 33 that he called 
``Osama's guys'' and described as Iraqi terrorists across the 
border somewhere in South Texas. He reported to a member of the 
Gulf cartel, the same group alleged to be involved in some of 
the same problems in the Texas border incident that we are 
talking about today. He admitted to charging $8,000 a head to 
smuggle in these terrorists across the U.S. border, in the 
region of the border in which this border incident occurred 
that were prompted with members of al-Qa'ida or other terrorist 
organizations. Is this an area where they could enter the 
United States easily?
    Chief Aguilar. The vulnerabilities that we face along our 
Nation's southwest border with Mexico is, in fact, just that, 
it is a vulnerability. We make the apprehensions of these OTMs. 
When we make these OTM apprehensions we ensure that every 
possible check that we have available to us, both domestically 
and foreign, is run on these individuals to ensure that we have 
everything we need on them.
    Is it a vulnerability? Yes. Do we have information that al-
Qa'ida and other terrorist organizations have looked at that 
possibility? Yes.
    Mr. Etheridge. Thank you. Let me ask one other question, 
because it has popped up several times now regarding corruption 
or the possibility of corruption, I guess is a better way to 
put it. Normally we don't like talking about it on our side of 
the border, but I think we need to raise the question.
    Does corruption occur on the U.S. side? Are there cases 
that you know about involving U.S. law enforcement? And if so, 
how many?
    Chief Aguilar. Corruption--
    Mr. Etheridge. You are dealing in a lot of bucks, and drugs 
are a part of it. It is an issue that I think law enforcement 
really worries about.
    Chief Aguilar. Yes, sir. Corruption does occur, 
Congressman. Obviously every law enforcement agency in the 
world, not just in the U.S., recruits members of the human 
race. We are fallible. The human race is fallible. I would like 
to think we are doing everything we can to keep corruption from 
becoming a major problem for us. I would like to see it as 
zero. There is still more that we can do. Corruption does 
occur. I don't have the numbers with me now. We can get back to 
you on those.
    Mr. Etheridge. Thank you. We would appreciate that. Thank 
you, sir.
    Mr. McCaul. The Chair recognizes Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. Chief Aguilar, just 
following up on that last question, the program to put in the 
$239 million worth of technology on the border, the Washington 
Post article that said most of that was squandered, that many 
of the computers didn't have cameras and some of the cameras 
didn't have computers, and in some places where they both were 
there they weren't hooked together. Did your department ever 
come to any conclusions on that program?
    Chief Aguilar. What you are referring to I believe, sir, is 
the old ISIS program basically managed under the old INS. There 
were major problems with that program.
    It is being assimilated under the SBI NET program. A lot of 
the problems that we had with it were that operators were not 
involved in the design, in the actual implementation. By 
operators, I mean the Border Patrol. That is being taken care 
of under SBI NET. We feel confident that the problems that 
occurred with ISIS are going to be taken care of, have been 
taken care of, and we will not allow those problems to 
resurface.
    Mr. Pearce. The catch and release program, the Secretary 
said we were going to stop the catch and release program. Judge 
Carter, a classmate of mine, just recently went to one of the 
detention facilities in Texas and they were processing them, 
and Judge Carter asked how long are they going to be here? And 
the guy says all they do is process them. Judge Carter said, I 
thought we were through with catch and release. He said we are. 
It is now catch, process and release.
    Are you familiar with any efforts--are we actually catching 
and releasing, or are catching, processing and releasing?
    Chief Aguilar. We are moving very assertively toward catch 
and remove. We did not get to this point of catch and release 
overnight, and it is going to take us awhile to get to the 
point of catch and remove.
    I can share with you that there have been some tremendous 
advances in the area of catch and release. An example, the 
McAllen sector, which is our highest producing OTM sector in 
the Nation, Brazilians are down by 90 percent coming into this 
country, and those that are coming in are being detained.
    There are some challenges that we are dealing with. For 
example, El Salvadorans, which right now happens to be the 
largest group of OTMs coming into this country, we cannot 
detain them. We cannot detain them because of the Orantes case. 
The Secretary is working very hard towards doing away with 
that, so that we can start the impacts on the El Salvadorans. 
Hondurans are down by 33 percent because of the fact we are 
detaining more and more of them in our three highest producing 
sectors; that is Laredo, McAllen and Del Rio.
    In Del Rio sector, we have implemented a prosecutorial 
program along with the marshals and the judiciary where we are 
prosecuting everybody that is crossing into that part of the 
country to include Salvadorans. It is proving to be very 
effective.
    Mr. Pearce. My constituents stay very hyper on this. You 
say the border is not under siege. They believe it to be, and, 
frankly, when I looked at that video it appears under siege. 
But when the Secretary says we are through with a program of 
catch and release and then we begin to use rhetorical 
statements that now it is catch, process and release, it makes 
it very, very difficult to convince my constituents that 
anything significant is being done. And when they see that the 
promise--when the full committee was in our districts, that we 
are going to go ahead and we are going to grade the zone along 
the border and use ATVs to patrol the border, and later the 
border agency just walked away and said never mind, we are not 
going to do that, it makes it very difficult for me to take a 
stance to support the agency which I hope will do the job of 
securing the border.
    When I talk to the people right there on the border, they 
don't believe that you have control of the border, which you 
said in your statement that the reason we are getting violence 
is because we have now taken control of so much of the border.
    For me, when the agents scoot back 7 miles, what we do is 
give a border-free enforcement zone, and that gives the 
appearance to the people that want to come across that there is 
simply the opportunity for lawlessness in a 7-mile region. It 
is very difficult for me to explain that to my constituents. 
You can respond if you would like.
    Chief Aguilar. I would love to respond, yes, sir. As to the 
issue of the placement and tactics that we take along the 
border, probably the worst use of our agents would be to 
actually place them with one foot on that borderline, because 
we have sensors, we have technology, we have accessibility to 
that border where we can more strategically place them to be 
more effective against the incursions that are happening coming 
into the United States.
    Now, I would like to go back to what you talked about, 
catch, process and release. That has not changed. We always 
apprehended, we always processed and we released when they had 
to. Now the releases are less than what they used to be. We are 
working towards catch, process and remove.
    Mr. Pearce. I think the Secretary's comments were we are 
going to stop the process of catch and release and to the 
Nation and the President said it also last year in that same 
speech. It was very closely spaced.
    Chief Aguilar. Yes, sir.
    Mr. Pearce. Well, we have significant difficulties at the 
border, and the people along the border are just afraid for 
their lives for the first time. And when you say that the worst 
thing we can do is to put a foot on the border, what that tells 
my constituents is you, you are the line of defense, and then 
we tell civilians, and I am on your side. I asked the 
Minutemen, please, don't operate. But when you leave the 
citizens of this country on the front line with no protection, 
that is a very difficult stance for me to support.
    Thank you, Mr. Chairman, for the extended time.
    Mr. McCaul. The Chair recognizes the ranking member for a 
clarification.
    Mr. Etheridge. Mr. Chairman, in my request for information 
on those who have been convicted of corruption intended to 
include all local, State as well as Federal operating on the 
border. If you can get that for us.
    Chief Aguilar. Yes, sir.
    Mr. McCaul. I would just like to add, I guess the 
Chairman's prerogative, that I ran for Congress, I worked in 
the U.S. Attorney's office in Texas, I was chief of 
counterterrorism, I had the Mexican border in my jurisdiction, 
I worked with intelligence agencies, and the number one threat 
I saw in terms of how we do things down there was the catch and 
release program. It was a big dangerous loophole in our 
national security policy. We met with Secretary Chertoff. He, 
in his words, called it indefensible. I know he knows it is 
indefensible. He has been in the department. He knows.
    I will say I was proud to offer the Mandatory Detention Act 
which passed out of the House which calls upon mandates. We are 
hopeful, Mr. Pearce and I, that Homeland Security can do it on 
its own. It has got expedited removal underway and you are 
doing a good job with that. We are hopeful you can put an end 
to catch and release. But just for insurance, we codified it in 
the House. I hope the Senate will pass that. We also called for 
temporary detention to make it more cost-effective.
    I know no one appreciates this concern more than you do, 
chief, and I know in the Border Patrol circles, it has been a 
well-kept secret for a decade, and it has percolated to the 
top; it has bubbled, it is a huge issue now. We want to make 
sure it is put to rest.
    Having said that, I would like to thank the witnesses for 
being here today. You are now excused.
    I would like to call our next panel of witnesses. The Chair 
now recognizes our next panel of witnesses. Sheriff Arvin West 
of Hudspeth County, Texas; Deputy Sheriff Legarreta, the Deputy 
Sheriff of Hudspeth County; Sheriff Leo Samaniego, who is the 
Vice Chair of the Texas Border Sheriff's Coalition and Sheriff 
of El Paso County; and finally T.J. Bonner, President of the 
National Border Patrol Council.
    Mr. McCaul. I want to thank all of you for being here, and 
particularly for those of you from Texas coming all the way up. 
It means a great deal to me. Thank you for being here.
    Sheriff West, we will start with you.

                STATEMENT OF SHERIFF ARVIN WEST

    Mr. West. Thank you, Mr. Chairman.
    My name is Arvin West. I currently hold the office of 
Sheriff for Hudspeth County, Texas. I have held that office of 
sheriff since December of 2000. I was born and raised in Sierra 
Blanca, Texas. I call Hudspeth County my home and have been 
acquainted with the border area my entire life. I am proud to 
be an American and will defend this country with all I can do.
    I have been in law enforcement since 1983, and this line of 
work has been my passion since the beginning of my career. I 
have worked along the border with Mexico since I began in law 
enforcement and I have seen many changes over the years. The 
level of violence has escalated over the years. The violence we 
see to die along the U.S.-Mexico border and Texas has escalated 
to the use of numerous types of automatic pistols, rifles and 
machine guns.
    The drug cartels are protecting their drug shipments 
better. With the use of wide open and virtually unsecured 
borders in Texas, terrorism of local citizens, weapons, radios 
and cell phones, surveillance, more manpower, spending more 
money to change vehicles and the use of officials from Mexico, 
Mexican military, local law enforcement, Federal law 
enforcement, the drug cartels are becoming more efficient at 
the drug trade.
    I am concerned that the drug cartels will further escalate 
the violence by the use of explosives. I am concerned that it 
is just a matter of time before the drug cartels will wire 
their drug loads with explosives, and when caught by law 
enforcement personnel detonate the load vehicle. The escalation 
of violence will be carried out with this in mind: If we can't 
have the drug loads, no one can.
    As the drug cartels become more advanced and better 
organized, they too will have the strategy of deterrence aimed 
at law enforcement, not to mention the fact of having to deal 
with irate citizens, i.e. the Minutemen, untrained volunteers 
working on their own, and vigilantes wanting to take the law 
into their own hands and secure the border by vigilant force.
    This is an overwhelming undertaking without the resources 
needed to do the work. To do the work effectively, all agencies 
from the U.S. Border Patrol to the local Sheriff's office need 
to increase the manpower and funding to train, equip and 
operate against the overwhelming manpower and weapons.
    Information my officers have received from informants tell 
us that the activities of Operation Linebacker and increased 
law enforcement presence across the Mexico--Hudspeth County 
border have frustrated the cartels operating in the area. This 
activity by the Hudspeth County Sheriff's office has caused the 
cartels to change their locations, spend more money on load 
vehicles, scouts and drivers.
    The frustrations the cartels are feeling has caused them to 
order that their load drivers be armed. The cartels have also 
employed others, such as the Mexican military, to help protect 
drug loads which are crossing into the U.S.
    The area along the Texas-Mexico border in Hudspeth County 
ranges from mountains to desert-like terrain with an abundance 
of foliage along the Mexican side of the Rio Grande River. In 
almost all places, the river can be crossed by vehicles or by 
foot and you only get your ankles wet.
    The total miles along the Texas-Mexico border is 
approximately 1,200 miles, which is often rugged terrain. The 
remote areas along the border tend to give sanctuary for the 
cartels, Mexican militaries, other terrorists and illegal 
immigrants would who hide in order to make entry into the U.S. 
undetected. It is crucial that the local law enforcement have 
additional manpower to confront these escalating activities.
    I can only hope and be heard, so that the others will 
recognize that we have a problem with the wide open and 
unsecured border between the U.S. and Mexico. The activity only 
the part of the drug cartels has been going on for a long time. 
I would like to relate to you the latest attempt to cross 
illegal drugs into the U.S. through Hudspeth County.
    On January 23, 2006, my deputies were working information 
that they had gathered that a drug load was to cross into the 
U.S. near Neely's Crossing in the southwestern part of the 
county.
    My officers began a surveillance of the area. Because of 
the use of scouts along the Rio Grande River and all areas 
where the drug loads were to travel, my officers set up their 
surveillance along the I-10 corridor, which is about 12 miles 
from the area where the drug load was to cross.
    At approximately 2:10 p.m. that afternoon, a Texas DPS 
trooper saw three vehicles turn around and cross the median on 
I-10. The vehicles began traveling eastbound at a high rate of 
speed. The DPS troopers initiated pursuit of the vehicles, at 
which time my deputies joined the chase. The seizure of 
approximately 1,474 pounds and a vehicle was the result of the 
front tire blown out that rendered the vehicle unable to 
continue.
    The deputies and DPS continued to chase the other two 
vehicles toward the water. When the deputies arrived at the 
border where the drug loads were to cross, the deputies were 
met with the Mexican military and a military Humvee. The 
deputies reporting seeing heavily armed soldiers in the Humvee. 
The deputies took a defensive position while the Humvee and the 
load vehicles crossed back into Mexico.
    While crossing the Rio Grande River, a vehicle became stuck 
in the river. The Mexican military then flanked the deputies 
and DPS in order to protect the load of marijuana that was 
stuck in the river. The Mexican military spread themselves out 
to the east and to the west on the either side of the vehicle 
in the river, concealing themselves in foliage on the Mexican 
side of the river.
    The deputies and DPS officers on the scene observed the 
vehicle was unloaded onto another vehicle. Once the marijuana 
was unloaded, the vehicle was set on fire and still sits in the 
river where it was burned.
    That stands corrected. It has since been moved.
    Efforts to secure the border with the U.S. and Mexico 
against illegal immigration, drug trafficking, Mexican military 
and terrorism has not been effective thus far. The border 
between Texas and Mexico has been a significant gateway of 
these kinds of illegal activities to enter the U.S. If illicit 
organizations can bring in tons of narcotics through the region 
and work a distributing network that spans the entire country, 
aided by the Mexican military, then they can bring in the 
resources of terrorism as well. If drug cartels can solicit 
untrained people to drive across the border undetected and into 
the country with illicit products, then what can a well-trained 
terrorist do?
    In conclusion, Mr. Chairman, committee members, I am 
committed as the Sheriff of Hudspeth County, Texas, to continue 
to make every effort possible, working with our partners in the 
Coalition of Sheriffs of Texas, the Texas State Governor's 
Office, Congress, Senate and other law enforcement agencies, 
local, State and Federal along our Nation's borders with 
Mexico, to stop, identify and detain any terrorist or 
components for terrorists before any other devastating act is 
committed in the country.
    The issue facing our Nation along the U.S. and Mexico 
border threatens our very freedom and way of life, one which we 
have embraced for many years, and I hope will continue many 
more. I hope that my vocal stance on this issue of ``Armed and 
dangerous: Confronting the problem of border incursions,'' will 
start the debate in our Nation's Capital and around the 
country. I hope this debate will fuel ideas real solution to 
the looming problem. I hope that a secure border and good 
relationship with our neighbors on our southern border will 
bring the U.S. and Mexico into a prosperous time for us all.
    Thank you for the opportunity to speak with your committee. 
May God bless you and this great Nation we call home.
    Mr. McCaul. Thank you, Sheriff West.
    [The statement of Sheriff West follows:]

                Prepared Statement of Sheriff Arvin West

    Mr. Chairman and Committee Members,
    My name is Arvin West. I currently hold the office of Sheriff for 
Hudspeth County, Texas. I have held the office of Sheriff since 
December 2000. I was born and raised in Sierra Blanca, Texas. I call 
Hudspeth County my home, and have been acquainted with the border area 
all my life. I am proud to be an American and will defend this county 
with all that I can do.
    I have been in law enforcement since 1983, and this line of work 
has been my passion since beginning my career. I have worked along the 
border with Mexico since I began in law enforcement and I have seen 
many changes over the years. The level of violence has escalated over 
the years. The violence we see today along the U.S. and Mexico border, 
in Texas, has escalated to the use of numerous types of automatic 
pistols, rifles, and machine guns. The Drug Cartels are protecting 
their drug shipments better. With the use of a wide open and virtually 
unsecured border in Texas, terrorism of local citizens, weapons, radios 
and cell phones, surveillance, more man power, spending more money to 
change vehicles, and the use of officials from Mexico ``Mexican 
Military, Local Law Enforcement, Federal Law Enforcement'', the drug 
cartels are becoming more efficient at the drug trade. I am concerned 
that the Drug Cartels will further escalate the violence by the use of 
explosives. I am concerned that it is just a matter of time that the 
Drug Cartels will wire their drug loads with explosives and when caught 
by law enforcement personnel, detonate the load vehicle. The escalation 
of violence will be carried out with this in mind, ``If we can't have 
the drug loads, no one can''. As the Drug Cartels become more advance 
and better organized they too will have a strategy of deterrence, aimed 
at law enforcement. Not to mention the fact of having to deal with 
irate citizens. IE: Minutemen, untrained volunteers working on their 
own, and vigilantes wanting to take the law into their own hands and 
secure the border by vigilante force. This is an overwhelming 
undertaking without the resources needed to do the work. To do the work 
effectively all law enforcement agencies from the U.S. Border Patrol to 
the Local Sheriff's Office's need an increase of man power and funding 
to train, equip, and operate against overwhelming man power and 
weapons.
    Information my officers have received from informants tells us, 
that the activities of Operation Linebacker and increased law 
enforcement presence along the Mexico/Hudspeth County border has 
frustrated the Cartels operating in the area. This activity by the 
Hudspeth County Sheriff's Office has caused the Cartels to change their 
locations, spend more money on load vehicles, scouts and drivers. The 
frustration the Cartels are feeling has caused them to order that their 
load drivers be armed. The Cartels also have employed others, such as 
the Mexican Military to help protect drug loads, which are to cross 
into the U.S.
    The area along the Texas/Mexico border is in Hudspeth County ranges 
from Mountainous to desert like terrain with an abundance of foliage 
along the Mexican side of the Rio Grande River. In almost all places 
the river can be crossed by vehicle or by foot, and only get your 
ankles wet.
    The total miles along the Texas/Mexico border is approximately 1200 
miles, which is often rugged terrain. The remote areas along the border 
tend to give a sanctuary for the Cartels, Mexican Military and others 
(Terrorist and Illegal Immigrants) who would hide in order to make 
entry into the U.S. undetected. It is crucial that the local Law 
Enforcement have additional manpower to confront this escalating 
activity.
    I can only hope and be heard, so that others will recognize that we 
have a problem with a wide-open and unsecured border between the U.S. 
and Mexico.
    The activity on the part of the drug Cartels has been going on for 
a long time. I would like to relate to you the latest attempt to cross 
illegal drugs into the U.S. through Hudspeth County.
    On January 23, 2006 my deputies were working information they had 
gathered that a drug load was to cross into the U.S. near Neely's 
crossing in the southwestern part of the county. My officers began a 
surveillance of the area. Because of the use of scouts along the Rio 
Grande River and all areas where the drug loads are to travel, my 
officers set up their surveillance along the I-10 corridor, which is 
about 12 miles from the area where the drug load was to cross. At 
approximately 2:10 p.m. in the afternoon a Texas DPS Trooper saw three 
vehicles turning around and cross the median on I-10. The vehicles 
began travel east bound at a high rate of speed. The DPS Troopers 
initiated a pursuit of the vehicles at which time my deputies joined 
the chase. A seizure of approximately 1474 lbs of marijuana and a 
vehicle was the result of a front tire blow out that rendered the 
vehicle unable to continue. The Deputies and DPS continued to chase the 
other two vehicles towards the border. When the Deputies arrived at the 
border where the drug loads were to cross, the Deputies were met with 
the Mexican Military in a military Humvee. The Deputies reported seeing 
heavily armed soldiers in the Humvee. The Deputies took a defensive 
position while the Humvee and load vehicles crossed back into Mexico. 
While crossing the Rio Grande River a vehicle became stuck in the 
river. The Mexican military then flanked the Deputies and DPS in order 
to protect the load of marijuana that was stuck in the river, The 
Mexican military spread themselves out to the east and to the west on 
either side of the vehicle in the river, concealing themselves in the 
foliage on the Mexico side of the river. The Deputies and DPS officers 
on the scene, observed as the vehicle was unloaded onto another 
vehicle. Once the marijuana was unloaded, the vehicle was set on fire 
and still sits in the river where it was burned.
    Efforts to secure the border with the U.S. and Mexico against 
illegal immigration, drug trafficking, Mexican Military, and terrorism 
has not been effective thus far. The border between Texas and Mexico 
has been a significant gateway of these kinds of illegal activities to 
enter the U.S. If illicit organizations can bring in tons of narcotics 
through this region and work a distribution network that spans the 
entire country aided by the Mexican Military, then they can bring in 
the resources for terrorism as well. If drug Cartels can solicit 
untrained people to drive across the border undetected and enter this 
county with illicit products, then what can a well-trained terrorist 
do?

Conclusion
    Mr. Chairman and Committee Members,
    I am committed as the Sheriff of Hudspeth County, Texas, to 
continue to make every effort possible, working with our partners in 
the Coalition of Sheriff's, Texas State Governors Office, Congress, 
Senate, and other Law Enforcement Agencies, Local, State, and Federal 
along our Nations Border with Mexico, to stop, identify and detain any 
terrorist or components for terrorism before another devastating act is 
committed in this Country. The issues facing our Nation along the U.S. 
and Mexico border threatens our very freedom and way of life, one which 
we have embraced for many years and I hope will continue for many more. 
I hope that my vocal stance on this issue of ``Armed and Dangerous: 
Confronting the Problem of Border Incursions'' will spark debate in our 
Nation's Capital and around the Country. I hope this debate will fuel 
ideas and real solutions to this looming problem. I hope that a secure 
border and a good relationship with our neighbor, on our southern 
border, will bring the U.S. and Mexico into a prosperous time for us 
all.
    Thank you, for the opportunity to speak before your committee, may 
God Bless you and this Great Nation we call home.

Sincerely,

Arvin West
Sheriff Hudspeth County Texas

    Mr. McCaul. Sheriff Samaniego.

STATEMENT OF LEO SAMANIEGO, VICE CHAIR, TEXAS BORDER SHERIFF'S 
        COALITION, SHERIFF, ELPASO CUNTY, STATE OF TEXAS

    Mr. Samaniego. Mr. Chairman, members of the subcommittee, 
Mr. Reyes, Congressman Pearce, thank you for the opportunity to 
come before you today and tell you what has been going on on 
the U.S.-Mexico border. Our Nation's security is our number one 
priority. The very routes, methods of concealment and human 
resources used by illicit organizations for drug trafficking 
and alien smuggling are also a threat to our national security.
    I have been a police officer, the sheriff now for 22 years, 
in El Paso. Next month I will have 50 years in law enforcement, 
all of them on the border, and I am a witness to what I 
consider been a dramatic increase not only in drug trafficking, 
but illegal alien smuggling, violence. Now we are dealing with 
armed individuals on the other side of the border, whether they 
be military or paramilitary, guerrillas, whatever you want to 
call them.
    I went on a radio station about a week ago and we were 
discussing the problem with what happened in Hudspeth County, 
and the lady I was talking to made a statement that made a lot 
of sense to me. She says, I don't care if there if it was Snow 
White and the seven Dwarfs. They were heavily armed. They pose 
a threat to citizens on both sides of the border. I think she 
is right.
    The drugs that come in to the United States in our area do 
not stay there very long. Most of them are shipped to many 
cities in the United States. So what takes place on the border 
or doesn't take place on the border is going to affect the rest 
of the United States, whether we are talking about drug 
trafficking or illegal aliens.
    If we let something cross the border and get away from us, 
it is going to wind up in Nashville, Shreveport, Houston, Los 
Angeles, who knows where.
    We have had many incidents of violence in El Paso County 
dating back to 2000. We have investigated murders of illegal 
aliens that were held up, they refused to give up their money, 
they were shot. We also had a bunch of robberies that we have 
investigated with the Border Patrol. And we have had a few 
incidents like the one in Hudspeth County on December 14th of 
2005. The Hudspeth County deputies and the Border Patrol were 
chasing a pickup truck that appeared to be loaded with 
marijuana. He made it up to I-10. It was apparent that he 
crossed the river somewhere in Hudspeth County and the driver 
refused to pull over. The next exit on the freeway, he headed 
south towards the river hoping to get away.
    To make a long story short, he drove the truck into a canal 
thinking it was the river. Of course, he jumped out and ran out 
on the other bank. It is my opinion that if he had made it to 
the river, we could have had another encounter like they did in 
Hudspeth County.
    There was another incident that was reported to us by a 
border patrolman, and this happened sometime in 2002. He was 
driving towards the river in the area of Fabens, which is close 
Hudspeth County, but in El Paso County, and he spotted what he 
thought were two soldiers dressed in army uniforms with 
automatic weapons on the Mexican side of the border, and one 
soldier on what he thought was a soldier on the U.S. side of 
the border, armed with the same type of weapon, and ten illegal 
aliens standing close by on the U.S. side.
    When they spotted him, they all went back across the river 
into the Mexican side, and then a Humvee with a couple of other 
soldiers drove up, talked to the illegals for a few minutes. 
The three soldiers climbed back on the Humvee and left the 
area. There is a bunch of other incidents that I am not going 
to get into because of the time.
    The Federal Government has spent millions of dollars to 
increase law enforcement in cities all over the United States, 
and in my opinion has failed to take care of the border where 
we should make every effort to stop either drugs or illegal 
aliens or anything else that may be coming into the country.
    If the organizations that bring in the drugs and the 
illegal aliens are able to bring truckloads of it, then 
terrorist organizations can also smuggle people to carry out 
their plans. On the southwest border the same organizations 
involved in smuggling drugs have also been found to smuggle 
illegal aliens. In January, there was an Iranian that came 
across in the area of Columbus, New Mexico. The individual 
claims that he had been in Mexico for a long time working his 
way to the American border. He made the mistake of going to a 
home and asking for water and food of an ICE agent. Of course, 
he was quickly arrested, and I don't know what else has 
happened with that story, sir.
    I am almost finished, sir, if you will allow me.
    Due to the Federal Government's inability to totally 
control the border, the Texas border Sheriff's coalition was 
organized back in May of 2005 to share information and develop 
operations to help one another. Operation Linebacker is a 
program designed by locals to solve local problems. Of course, 
we took that from operation stone garden, which was very 
successful, but it was not long enough, just a matter of weeks, 
and then the funding ran out. Our national security is only as 
good as the weakest link, and in my opinion, the U.S.-Mexico 
border is the weakest link.
    That concludes my testimony, sir. If you have any 
questions, I would be happy to answer.
    [The statement of Mr. Samaniego follows:]

              Prepared Statement of Sheriff Leo Samaniego

    Mr. Chairman, members of the committee, I would like to thank you 
for the opportunity to testify today on the impact of incursions, the 
drug trade, the status of law enforcement along the Texas/New Mexico-
Mexico border, and ways to improve security here. I would also like to 
thank you for holding this hearing. My only regret is that the hearing 
wasn't held on the border, where the rubber meets the road in drug 
trafficking, incursions and national security.
    Realizing that our nation's security is our number one priority 
that does not diminish the problem we have with the recent border 
incursions and drug trafficking. In many ways, these two issues go hand 
in hand. The very routes, methods of concealment, and human resources 
used by illicit organizations for drug trafficking and alien smuggling 
are also a threat to our nation's security. On this border, counter-
narcotics and national security efforts tap into the same law 
enforcement resources.

The problem
    What I want you to walk away from this hearing with is the 
knowledge that the national drug abuse problem has a significant impact 
on the community of El Paso, and the entire Southwest Border. I want 
you to remember that the drugs flowing across this border, are, by and 
large, not staying here. Drug trafficking is not a local problem, it is 
a national problem, and requires the attention of our Federal 
government. While there is a drug abuse problem in El Paso, the demand 
does not compare to the high demand for drugs in the rest of the 
nation. The problem for El Paso is the transshipment of drugs through 
the region, and the illegal activities associated with it. Drug 
traffickers do not stop for long once they have entered El Paso. They 
continue with their shipments on to cities throughout the country. The 
failure to stop drug smuggling here today could mean 1,000 kilograms of 
marijuana will end up on the streets of St. Louis, Shreveport, 
Nashville--you name the city--tomorrow.
    To illustrate my point let me tell you story about an incident on 
Wednesday, December 14, 2005. Deputies in Hudspeth County and Border 
Patrol Agents working in Hudspeth County identified a pick-up truck 
suspected of engaging in narcotics trafficking. Based on physical 
evidence; the vehicle crossed a low water point in the Rio Grande in 
Hudspeth County, Texas. The vehicle illegally crossed into the United 
States from Mexico.
    Border Patrol Agents and Hudspeth County deputies spotted the 1992 
Ford (Black and Grey) extended cab 4X4. The driver of the vehicle 
failed to pull over and eventually crossed into El Paso County. El Paso 
County Sheriff's Deputies were notified of the fleeing vehicle.
    The driver traveling west on Interstate 10 exited the highway at 
the Tornillo exit and headed south toward the river. El Paso County 
Sheriff's Deputies (Drug Interdiction Unit) spotted the vehicle and 
attempted to pull the driver over.
    The driver traveling south on Feed Penn (Approximately 55 mph in a 
residential area & School Zone) thought he was crossing the river near 
the intersection of Chamizo. In reality the driver was crossing the 
Franklin Canal when his truck got stuck. He was not injured as a result 
of driving into the canal. The driver exited the vehicle. Deputies 
caught him in a foot pursuit.
    The driver is identified as Ricardo Roman Padilla (26 years old) 
from Guadalupe, Chihuahua, Mexico. Padilla is charged with possession 
of marijuana (over 50 pounds under 2,000 pounds). This is a second-
degree felony. His bond is $75,000.00.
    This is an incursion that demonstrates how porous the Texas/Mexico 
Border is. Imagine if this chase had occurred about 20 minutes early 
when school children would have been walking home from school along 
Feed Penn Rd.
    He was caught because Governor Rick Perry has provided the Texas 
Border Sheriff's Coalition grant money that allows us to increase 
patrols in the hot spots utilizing money to pay officers overtime to 
work these danger zones. This is a program we call ``Operation 
Linebacker.''

Security of the Border
    If the border was secure then these next three stories wouldn't 
have to be told to emphasize the problems we face.

    September 12, 2000, Chihuahua State Judicial Police request 
assistance from the El Paso County Sheriff's Office in locating a 
possible crime scene on the Rio Grande-International Boundary near San 
Isidro, D.B. and possibly in the area of San Elizario, Texas.
    El Paso County Sheriff's Office (CID) Detectives meet with State 
Judicial Police and two (2) witnesses near the river. The witnesses 
were related to the deceased.
    Witnesses stated that the deceased was attempting to cross seven 
(7) persons illegally into the United States. They said that three (3) 
suspects wearing ski masks confronted them. The witnesses stated that 
the suspects came out of the foliage and demanded their money. They 
stated that the deceased refused to cooperate and was sot by one (1) of 
the suspects. The witnesses stated that the incident took place in the 
water. The deceased was on the Mexican side of the embankment. No 
physical evidence was ever recovered. Several shoe impressions were 
identified and photographed.

    November 28, 2000, Border Patrol Agent from Fabens Station observes 
possible illegal entry approximately nine (9) miles west of the Fabens 
Port of Entry. An Agent also observed two (2) individuals on the 
Mexican side of the Rio Grande River; one (1) individual was hiding 
along the levee on the United States side of the river and 
approximately ten (10) individuals standing along the river bank on the 
U.S. side.
    The same agent also observed two individuals on the Mexican side 
carrying military style rifles (M-16 style) and was wearing military 
type clothing.
    The individuals on U.S. soil spotted by the Agent walked back 
across the river into Mexico. As the subjects walked back into Mexico 
the Agent observed the subject hiding along the levee on the U.S. was 
also carrying a military style rifle and was wearing military clothing. 
Once on the Mexican side, the three (3) subjects wearing military 
clothing waived at the Agent and departed the area along with the group 
of ten (10).
    A short time later a military Humvee vehicle approached the ten 
(10) subjects and spoke to them. The vehicle then proceeded to leave 
the area after picking up the subjects dressed in military clothing. 
The Agent reported the individuals never made any threatening actions 
toward him.
    In the summer of 2000, not long after the formation of the El Paso 
County Sheriff's Office RAPTOR team (Rapid Deployment Tactical Unit) in 
`02, we were asked by Border Patrol (BP) to assist with surveillance 
along the river levee near the Lee Moore Children's home. There had 
been some robberies of illegal crossers in the area. The suspects were 
reported to be using what looked like military ambush tactics.
    In one incident, a man was being held up and apparently tried to 
resist. He was thrown to the ground and shot, though not killed. BP set 
up an LPOP in the area and encountered the suspects. There was a foot 
chase and BP almost caught one of them, however they managed to make it 
back across the river.
    After that, RAPTOR was requested to assist. This would have been in 
August of 2002. Members of the team lay in along the levee to assist 
with surveillance. RAPTOR worked with the agents forming up to three 
teams of eight men who worked surveillance or security during the 
operation. Our personnel were trained in surveillance and how to use BP 
equipment including the night vision and communications gear.
    While the city of El Paso is a safe community, the nation's third 
safest; approximately 3,000 automobiles a year are stolen in El Paso 
and taken to Mexico. Literally a stone's throw away, the City of 
Juarez, Mexico has been plagued with over 500 drug related homicides in 
the last ten years. Many of those were gang-style executions, and in 
addition there are approximately 200 unsolved murders of young women.

    National Law Enforcement Effort
    The enforcement efforts in other major cities are being increased 
because we are not stopping the drugs here. Efforts to secure our 
border against terrorism have not curbed the use of the Southwest 
border as the most significant gateway of drugs being smuggled into the 
United States. Federal resources have been expanded in cities to our 
north to combat drug use and distribution, yet most of the drugs have 
originated from this border. If illicit organizations can bring in tons 
of narcotics through this region and work a distribution network that 
spans the entire country, then they can bring in the resources for 
terrorism as well. If illegal aliens can be smuggled through here in 
truck loads (and they are) then terrorist organizations can also 
covertly smuggle the people to carry out their plans. On the Southwest 
Border, the same organizations involved in smuggling drugs have also 
been found to smuggle illegal aliens. Their motive is profit, 
regardless of the negative impact on our country. Smuggling terrorists, 
weapons, or weapons components would not be a far reach for these 
established organizations.
    There are two issues that plague this area. First, the Federal 
government is expecting local agencies to assist with addressing the 
national drug problem, and now with increased national security 
efforts, but with reduced resources. Secondly, the Federal government 
is expecting more of its Federal agencies on the Southwest Border 
without adequate resources.

Federal Resources
    There are Federal agencies in El Paso which have jurisdiction for 
investigating the types of crimes that are associated with both drug 
trafficking and national security; weapons trafficking and money 
laundering. However these agencies are so undermanned that they can 
barely extend resources towards the cooperative efforts required for 
national security and drug enforcement. Weapons trafficking is known to 
be an activity of the drug trafficking organizations, however, a 
systemic cooperative effort has not been made because the Bureau of 
Alcohol, Tobacco, and Fire Arms (ATF) does not have adequate numbers of 
agents up and down the border. The Internal Revenue Service, Criminal 
Investigation Division (IRS) has also been seriously undermanned up and 
down the border. These agencies need to be significantly increase to 
address serious drug trafficking and security threats such as money 
laundering and weapons trafficking, two threats that have been largely 
ignored on the Southwest Border.

Border Sheriff's
    I would like to close by describing how, the Texas Border Sheriff's 
Coalition has organized to share information, develop an operation to 
help one another with the federal government's inability to control the 
border. Operation Linebacker is a program designed by locals to solve 
local problems.
    Extra patrols already operate under this plan thanks in large part 
to Governor Rick Perry who has stated on numerous occasions, ``Although 
border security is a federal responsibility, we have no choice but to 
take aggressive steps at the state and local level to secure our 
borders and protect Texans.''
    In October 2005 Governor Perry released a comprehensive, six-point 
border security plan that featured Operation Linebacker. Again this 
program was designed by the Coalition to increase law enforcement 
presence along the Texas-Mexico border, particularly between legal 
points of entry.
    Operation Linebacker is making life more difficult for those trying 
to smuggle drugs, weapons and people in to Texas. The incursions in 
Hudspeth County in the past two weeks, the reports of the confiscation 
of Improvised Explosive Devices (IED's) in Laredo, Texas last week and 
threats of personal harm to law enforcement personnel the past two 
months makes one fact clear, it is imperative that we increase security 
along our 1,200 border, it is a matter of a public safety and homeland 
security.

Conclusion
    I want to thank you, Mr. Chairman, for this opportunity to testify. 
The El Paso County Sheriff's Office continues to make every effort 
possible, working with our fellow law enforcement agencies, Federal, 
state and local, to address the concerns of the community of El Paso 
and the American people. I would be happy to answer any questions you 
might have.

    [Mr. Leo Samaniego, appeared in the place of Sheriff 
Sigifredo Gonzalez, Jr., Zapata County, Texas, Texas Border 
Sheriff's Coalition. Mr. Gonzalez's prepared statement is 
maintained in the committee file.]
    Mr. McCaul. Thank you, Sheriff. I know we will have many 
questions for you and perhaps more time for you to share with 
us some of your anecdotal stories about what you have observed 
on the border.
    Deputy Sheriff Legarreta.

   STATEMENT OF ESEQUIEL LEGARRETA, DEPUTY SHERIFF, HUDSPETH 
                     COUNTY, STATE OF TEXAS

    Mr. Legarreta. Mr. Chairman and committee members, on 
Monday, January 23, 2006, Sheriff's deputies from Hudspeth 
County were patrolling along interstate highways with 
information that was received that a large shipment of 
marijuana was supposed to be coming up from Farm Market Road 
192 and up toward the Tiger Truckstop and then heading west on 
Interstate 10. Further information received was that the 
shipment was going to be transported by three newer model sport 
utility vehicles. One was supposed to be a black Cadillac 
Escalade, vehicle number two was supposed to be a blue Ford 
Expedition and the third vehicle was supposed to be a gray 
Toyota Four Runner.
    At approximately 2 p.m. information received was that the 
vehicles had entered and were traveling toward Interstate 10. 
Texas DPS troopers were advised to start heading west on 
Interstate 10. At approximately 2:11, all three vehicles were 
spotted crossing the overpass at milepost 87 heading westbound. 
At this time, all information was then aired over the radio.
    At milepost 84, Texas DPS troopers noticed all three 
vehicles had crossed the median on Interstate 10 and were 
heading east on Interstate 10. The DPS troopers attempted to 
make contact with these vehicles, however the vehicles refused 
to stop. These vehicles attempted to elude DPS troopers by 
accelerating at speeds in excess of 100 miles per hour.
    DPS troopers called out a pursuit over the radio. DPS 
trooper number one was behind a black Cadillac Escalade and DPS 
trooper number two was behind the blue Ford Expedition. The 
gray Toyota Four Runner was between DPS Trooper one and the 
blue Ford Expedition.
    The black Cadillac Escalade blew out its front passenger 
tire and came to rest about 7 miles south of milepost 87. DPS 
trooper number one cleared the vehicle and stayed with the 
vehicle. The driver of that vehicle had fled south toward 
Mexico. DPS troopers number two and the Hudspeth County Sheriff 
continued to pursue the blue Expedition at speeds of in excess 
of 100 miles per hour.
    At approximately 11 miles southeast of milepost 87, the 
blue Ford Expedition turned off Farm Market Road 192 and on to 
a dirt road heading south toward the American-Mexican border. 
DPS trooper number two followed but went off the road. The 
Deputy Sheriff then continued the pursuit following behind the 
blue Ford Expedition.
    Approximately 1-1/2 miles south of Farm Market Road 192, 
the blue Ford Expedition continued into the Rio Grande levee 
southbound. The gray Toyota Four Runner was already in the 
river and was continuing south into Mexico.
    As the Deputy Sheriff came up on the curve, they 
encountered a military-style Humvee that was parked on the 
American side of the Rio Grande levee road. As the blue Ford 
Expedition went by the Humvee, it turned around and went back 
toward the river. A subject on the Humvee was observed wearing 
olive drab green military fatigues with an olive green military 
cap. This subject was also observed holding what appeared to be 
a heavy caliber weapon with what looked to be tripods mounted 
on it. The driver was also dressed in the same uniform, but 
this subject had a smaller caliber automatic weapon. The Humvee 
followed the vehicles in an angle toward the Rio Grande river 
and actually got into the river, crossing back into Mexico.
    While waiting for the two vehicles to make it back across 
into Mexico, the grey Toyota Four Runner had gone first and 
waited in the river for the blue Ford Expedition. The blue Ford 
Expedition attempted to cross the river bank on the Mexico 
side, but got stuck.
    At this time, another Humvee arrived and uniformed men were 
observed getting out and taking position east and west along 
the Mexico side of the river banks hiding behind heavy thick 
brush.
    After the uniformed men arrived, approximately 10 or 15 men 
dressed in civilian clothes arrived. Some of the civilians were 
armed with unknown automatic long rifles. But at this time the 
Toyota Four Runner had attempted to push the blue Ford 
Expedition up the bank but could not. The Humvee then attempted 
to pull the blue Ford Expedition with a chain or strap, while 
the gray Toyota Four Runner pushed, but this attempt also 
failed.
    Then a couple of men knocked over a fence on the Mexico 
side of the river bank and the gray Toyota Four Runner drove 
across. The Humvee then drove back into the Rio Grande River 
and attempted to push the blue Ford Expedition up and over the 
river bank. This attempt also failed.
    At this time, civilian men started to offload the 
contraband from the blue Ford Expedition. Once the cargo was 
offloaded, an unknown subject intentionally set the blue Ford 
Expedition on fire. The contraband was then loaded on to 
another pickup truck on the Mexican side and the vehicles drove 
off. Then the civilian subjects walked away.
    Away from the area along with Humvee. It is unknown what 
happened to the military uniform individuals due to the fact 
that once they took cover behind the heavy thick brush, they 
were not to be seen again.
    Mr. McCaul. Deputy Sheriff, I understand we have a video, 
the one taken by the Department of Public Safety, that I would 
ask that you narrate for the committee.
    Mr. Legarreta. Yes, sir. Would you like me to stand up and 
point to the areas?
    Mr. McCaul. Sure, that would be fine.
    Mr. Legarreta. This is right off the Tiger. This is the 
black Escalade. This is trooper number one behind the black 
Escalade. At this time they are going in excess of 100 miles an 
hour. Keep in mind that this road right here is primarily not 
in the best shape.
    Okay. Right here, if you can freeze it right there, this is 
where the trooper went after he went off the road and thought 
the vehicle had rolled over. She got off and tried to find that 
vehicle, but the vehicle had kept going. The only vehicle that 
couldn't make it was her.
    That is where I went by right there. I was already up 
there. This particular area right here is actually way after 
when I saw it. You can see the military Humvee right there, the 
personnel getting off of that one, and there is the Expedition 
right here in this area trying to get--trying to keep going, 
but they can't get it. There is a Humvee, this is where they 
strapped on the chain. Now they are trying to push it back down 
in the river trying to get it unstuck.
    Right here is the gray Toyota Four Runner. As I said, it 
was just sitting in the river, trying to wait for the past and 
to get clear.
    Down here you see the men right here breaking down the 
fence right here. They are jumping, tugging, breaking the fence 
line getting it ready for this Toyota Four Runner to come 
around them and go out that way.
    Also keep in mind, this is way after I arrived. At this 
time there was other backup there, being DPS, SO, and I believe 
Border Patrol by that time.
    The military I saw was already out in the brush, out and 
about, hidden out there, both east and west of the expedition's 
location.
    This just right here is showing where the individuals are 
removing the contraband from the vehicle.
    This right here is actually when somebody on the Mexican 
side had set that Expedition on fire, and it just burned. It 
burned down. Being on the Mexican river bank, there is not much 
we can do.
    Once they did that, all the men, there is a road that runs 
right here. It kind of runs at an angle out in Mexico. All the 
men, and there was some military men that were gathered up in a 
big old circle right around here, right back here, and I don't 
know what they were talking about, but they were in a big old 
circle. I believe this is on the Escalade again. Disregard to 
public safety, just ran around the 18 wheeler.
    Like I said, it is approximately three or four miles to 
where the Escalade actually blew out its tire. There is where 
he lost part of his tire right there.
    Mr. McCaul. Sheriff, are we starting from the beginning at 
this point?
    Mr. Legarreta. The way they set the vehicle, it is going 
back.
    Mr. McCaul. I would like to comment that this entire video 
will be made available on the Homeland Security Committee's Web 
site. So thank you.
    Mr. Legarreta. Yes, sir.
    Mr. McCaul. Thank you. I think we have a greater 
appreciation of what you all have to deal with every day down 
there on the border. I appreciate your testimony.
    [The statement of Mr. Legarreta follows:]

         Prepared Statment of Deputy Sheriff Esequiel Legarreta

    Mr. Chairman and Committee Members,
    On Monday, January 23, 2006, Sheriff's Deputies from Hudspeth 
County were patrolling along the interstate highways when information 
was received that a large shipment of marijuana was supposed to be 
coming up from Farm Market Road 192 and up toward the Tiger Truckstop 
and then heading west on Interstate 10.
    Further information received was that the shipment was going to be 
transported by (3) three new model sport utility vehicles. One vehicle 
was supposed to be a Black Cadillac Escalade. Vehicle number two was a 
Blue Ford Expedition, and the third vehicle was a Grey Toyota Four 
Runner.
    At approximately 2:00 p.m. information received was that the 
vehicles had entered and were traveling toward Interstate 10. Texas 
Department of Public Safety (DPS) Troopers were advised to start 
heading west on Interstate 10. At approximately 2:11 p.m. all three 
vehicles were spotted crossing the overpass at milepost 87 heading 
westbound. At this time all information then aired over the radio. At 
milepost 84 Texas DPS Troopers noticed all three vehicle had crossed 
the median on Interstate 10 and were heading east on Interstate 10. The 
DPS Troopers attempted to make contact with these vehicles; however, 
the vehicles refused to stop. These vehicles attempted to elude DPS 
Troopers by accelerating to speeds in excess of 100-miles per hour. DPS 
Troopers called out a pursuit over the radio. DPS Trooper number one 
was behind a Black Cadillac Escalade and DPS Trooper number two was 
behind a Blue Ford Expedition. The Grey Toyota Four Runner was between 
DPS Trooper one and the Blue Ford Expedition.
    The Black Cadillac Escalade blew out its front passenger tire and 
came to rest about seven miles south of milepost 87. DPS Trooper number 
one cleared the vehicle and stayed with the vehicle. The driver of that 
vehicle fled south toward Mexico. DPS Trooper number two and a Hudspeth 
County Deputy Sheriff continued to pursue the Blue Ford Expedition at 
speeds in excess of 100-miles per hour.
    Approximately eleven miles southeast of milepost 87, the Blue Ford 
Expedition turned off Farm Market Road 192 and onto a dirt road heading 
south toward the American-Mexican border. DPS Trooper number two 
followed, but went off the road. The Deputy Sheriff then continued with 
the pursuit following behind the Blue Ford Expedition. Approximately 
one and a half miles south of Farm Market Road 192, the Blue Ford 
Expedition continued onto the Rio Grande levee (southbound). The Grey 
Toyota Four Runner was already in the Rio Grande River and continuing 
south into Mexico.
    As the Deputy Sheriffs came up on the curve they encountered the 
military-style hummvee that was parked on the American side of the Rio 
Grande levee road. As the Blue Ford Expedition went by the hummvee, it 
turned around and went back toward the river. A subject on the hummvee 
was observed wearing an olive drap green military fatigues with an 
olive green military cap. This subject was observed holding what 
appeared to be a heavy caliber weapon with what looked to be tripods 
mounted on it. The driver was also dressed in the same uniform, but 
this subject had a smaller caliber automatic weapon. The hummvee 
followed the vehicles in angle toward the Rio Grande River and actually 
got into the river crossing back into Mexico, awaiting for the two 
vehicles to make it back across into Mexico. The Grey Toyota Four 
Runner had gone first and waited in the river for the Blue Ford 
Expedition. The Blue Ford Expedition attempted to cross the riverbank 
on the Mexican side, but got stuck.
    At this time another hummvee arrived and uniformed men were 
observed getting out and taking position east and west along the Mexico 
side river banks, hiding behind heavy thick brush. After the uniformed 
men arrived approximately 10-15 men dressed in civilian clothes 
arrived. Some of the civilians were armed with unknown automatic long 
rifles. At this time the Grey Toyota Four Runner attempted to push the 
Blue Ford Expedition up the bank, but could not. The hummvee then 
attempted to pull the Blue Ford Expedition with a chain or strap while 
the Grey Toyota Four Runner pushed, but this attempt failed as well. 
Then, a couple of men knocked over a fence on the Mexican side of the 
riverbank and the Grey Toyota Four Runner drove across. The hummvee 
then drove back into Rio Grande River and attempted to push the Blue 
Ford Expedition up and over the riverbank. This attempt also failed. At 
this time civilian men started to offload the contraband from the Blue 
Ford Expedition. Once the cargo was offloaded, an unknown subject 
intentionally set the Blue Ford Expedition on fire. The contraband was 
then loaded on another pick up truck on the Mexican side and then the 
vehicle drove off. Then, the civilians' subjects then walked away from 
the area along with hummvee's. It is unknown what happened to the 
military uniformed indivuals due to the fact that once they took cover 
behind the heavy thick brush they were not seen again.

    Mr. McCaul. Mr. Bonner.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Bonner. Thank you, Chairman McCaul, Ranking Member 
Etheridge, Congressman Pearce, Congressman Reyes. On behalf of 
the 10,500 rank and file Border Patrol agents I represent, I 
very much appreciate the opportunity to express and convey 
their concerns about this very serious problem of armed 
incursions into the United States.
    In my written testimony I have outlined some details of 
four incidents in which U.S. Border Patrol agents were shot at 
by armed intruders dressed in military uniforms, and in some 
cases we know for a fact that they were Mexican soldiers 
because in the Santa Theresa incident we captured nine soldiers 
and some of them had fired at us, not from that particular 
group. There were a total of about 16 soldiers, and they fired 
shots at some of our agents. Of course, Mexico denied that any 
shots had been fired.
    In a subsequent incident not more than 7 months after that 
in San Diego, our agents were fired upon again by Mexican 
soldiers; and Mexico confirmed that they had soldiers operating 
in that area but once again denied that their soldiers had 
fired shots at our agents.
    And then in another incident in Arizona a couple of years 
after that, our agents--one of our agents was fired at again 
and two of the windshields of his vehicle were blown out by a 
single rifle round, we must assume, to have that much velocity 
and staying power.
    And then, finally, we had two agents seriously wounded last 
year in Arizona by rifle fire from AK 47s, high-powered rifles. 
In this incident it may or may not have been the Mexican 
military. It was men dressed in black fatigues.
    What concerns me is that if they weren't Mexican military 
in any of these incidents, and we know that they were in some, 
why is Mexico just sitting back and allowing this to happen. I 
just can cannot conceive of the United States Government doing 
the same thing. I can't conceive of a Border Patrol agent or of 
a deputy sheriff or a State policeman or any law enforcement 
officer in the United States just sitting back along the border 
and saying, oh, that is curious. There goes a Humvee with some 
guys dressed up in military uniforms, but they are not coming 
into the United States so it is not really our problem. I guess 
we shouldn't even bother notifying the law enforcement 
authorities on the other side. Oh, look, they are shooting at 
the law enforcement agents on the other side. Boy, I am glad I 
am not over there.
    I just can't see that happening, and yet Mexico with its 
continued denials is doing exactly that. They are sitting back 
and either allowing lawlessness to happen or some of their 
military and police are engaging in it, and we know that to be 
a fact. We know it is well documented that Mexican police and 
Mexican military, a fair number of them, are corrupt.
    Now I am speaking for the agents, I am not speaking for the 
Department of Homeland Security or for the Department of State, 
so I am going to be bluntly candid. There is no way to 
sugarcoat this. There is a culture of corruption in Mexico. We 
know it exists, and we have to deal with it. These things 
don't--some of these incidents do not pass what I call the duck 
test. If it walks like a duck, quacks like a duck, looks like a 
duck, it is a duck. When you have people who are dressed in 
military uniforms, driving military Humvees, carrying military 
weapons, I would say that in all likelihood these are people 
who are in the military.
    Mexico has not been candid with us and forthright in their 
assessment of some of these incidents, so it falls upon us to 
protect our sovereignty. To that end, we have made some 
specific recommendations in our written testimony--written 
statement.
    First of all, we believe the foreign aid we are providing 
to Mexico in the amount of about $60 billion a year currently 
for narcotics efforts should be immediately discontinued. I 
don't want to have American tax dollars being used to fire at 
U.S. law enforcement agents.
    We need to clearly demarcate the international boundary 
between the United States and Mexico. Now there are parts where 
it is pretty clear, especially when you get around the Rio 
Grande, but other parts as you move west of that it is less 
than clear. And granted it is not the easiest thing in the 
world to figure it out sometimes, but if it isn't in an 
incursion, there should not be any pointing of weapons or any 
gunfire associated with it.
    We also believe that the Government of the United States at 
the highest levels needs to sit down with the Government of 
Mexico and tell them it ends here, it ends now. There will be 
no more incursions. We take this very seriously. And if there 
are further incursions, if you are not willing to deal with it, 
we will deal with it on our own.
    Which leads me to one of the other recommendations, and 
Congressman Reyes will probably be surprised to hear me say 
this but I believe we need the U.S. military to be on standby 
at the border. Not to patrol the border and enforce immigration 
laws but to be on standby for these incursions. If Mexico's 
military is going to come into the United States and fire shots 
or threaten our law enforcement agents, our law enforcement 
agents do not have the training, they don't have the weapons, 
they don't have the ability to deal with that. Our military 
does.
    I also believe that if we want to gain control of that 
border, and we must for the sake of Homeland Security, we need 
to enact real work site enforcement such as H.R. 98, which 
Congressman Reyes is one of the original cosponsors of that 
bill. We also need to give the Border Patrol the tools, 
training and support that it needs such as is contained in H.R. 
4044; and Congressman Reyes is also a cosponsor of that 
important piece of legislation.
    I don't want to have to go to the funeral of a Border 
Patrol agent or any other law enforcement officer who has been 
killed by people coming across our borders, whether they be 
Mexican military or not; and Mexico is turning a blind eye and 
allowing them to operate along its northern border. Please, for 
the sake of these brave and dedicated law enforcement officers 
who risk their lives every day, take the necessary steps to not 
only protect them but to protect our Homeland Security. Thank 
you very much for your time.
    [The statement of Mr. Bonner follows:]

 Prepared Statement of T.J. Bonner, President, National Border Patrol 
                                Council

    The National Border Patrol Council appreciates the opportunity to 
present the views, concerns and recommendations of the 10,500 front-
line employees that it represents regarding the growing problem of 
armed incursions across the southwest border of the United States by 
current and former Mexican soldiers and law enforcement officers.
    Over the course of the past several decades, hundreds of such 
incursions have been documented by the Border Patrol and other law 
enforcement agencies. While the overall number of these incursions has 
not increased significantly during the past few years, the level of 
violence associated with them has escalated dramatically. This should 
be cause for alarm on both sides of the border. In the four incidents 
described below, U.S. Border Patrol agents were shot at by current or 
former Mexican officials trespassing on American soil:
    <bullet> March 14, 2000, shortly after 10:00 p.m., near Santa 
Teresa, New Mexico (about fifteen miles west of El Paso, Texas): Two 
Mexican Army High Mobility Multipurpose Wheeled Vehicles (HMMWVs or 
Humvees) carrying about sixteen armed soldiers drove across the 
international boundary and into the United States. The vehicles pursued 
a Border Patrol Ford Expedition outfitted with decals and emergency 
lights (which were activated for much of the time that it was being 
pursued) over a mile into the United States. The lead vehicle, 
containing nine soldiers armed with seven automatic assault rifles, one 
submachine gun, and two .45 caliber pistols, was captured by the Border 
Patrol after it became stuck in sand. The second vehicle pursued a 
Border Patrol agent on horseback and fired a shot at him. The soldiers 
then disembarked from the vehicle, fired upon one more Border Patrol 
agent and chased another agent before fleeing to Mexico in their 
vehicle. After being held by the Border Patrol for several hours, the 
captured soldiers and their vehicle, weapons, and ammunition were 
returned to Mexico. The Mexican government later denied that its 
soldiers had fired any shots.
    <bullet> October 24, 2000, around 12:00 p.m., near Copper Canyon, 
about thirteen miles east of San Ysidro, California: Two U.S. Border 
Patrol agents observed a group of ten men dressed in military-style 
uniforms with tactical vests and carrying high-powered military rifles, 
at least two of which had bayonets affixed. Approximately eight shots 
were fired toward the location of the agents. The agents took cover in 
thick brush and identified themselves in Spanish as Border Patrol 
agents, but were nonetheless pursued by some of the soldiers, who 
entered the United States by crossing a well-maintained barbed-wire 
fence. The other Mexican soldiers set up two sniper positions, one in 
Mexico and another in the United States. The soldiers searched the 
area, pointing their weapons in the direction of the Border Patrol 
agents and ordering them in Spanish to come out of the brush. The 
agents did not comply, but instead identified themselves again and told 
the soldiers to return to Mexico. When more Border Patrol agents neared 
the scene, the soldiers retreated to Mexico and drove off in a minivan. 
The agents returned to the scene of the incident on their own time two 
days later by legally crossing into Mexico through the Tecate Port of 
Entry. They took photographs of relevant evidence, recovered two 
recently-fired .380 caliber brass cartridges, and submitted all of this 
evidence to their supervisors. The government of Mexico subsequently 
confirmed that one of its military units had been operating in that 
area, but denied that any shots had been fired.
    <bullet> May 17, 2002, at approximately 8:30 p.m., near Papago 
Farms, about 90 miles southwest of Tucson, Arizona: A U.S. Border 
Patrol agent patrolling about five miles north of the international 
border spotted a military helicopter flying toward Mexico. Shortly 
afterwards, the agent encountered a Humvee with three heavily-armed 
soldiers in the back. As the agent was quickly departing the area to 
avoid an armed confrontation, his vehicle was struck by a bullet that 
entered a rear window on the passenger's side and exited through a 
window on the driver's side. About four-and-a-half hours earlier, a 
Tohono O'odham police ranger patrolling near that location reported 
being chased by a Humvee containing several armed men wearing military-
style uniforms. The Mexican government denied that any of its military 
units were operating in that area.
    <bullet> June 30, 2005, at approximately 12:30 p.m., east of 
Nogales, Arizona: Two U.S. Border Patrol agents encountered a group of 
ten to twelve men wearing black military-style uniforms about a mile 
north of the international border. Some of the men opened fire on the 
agents, and at least one of them utilized a hand-held radio to direct 
the gunfire of several hidden shooters. A total of more than fifty 
high-powered rifle rounds were fired at the agents, both of whom were 
seriously wounded. The gunmen retreated back to Mexico using military-
style cover and concealment tactics. Nearly five hundred pounds of 
marijuana were recovered during a search of the area.
    While it is evident that bona fide Mexican military units were 
involved in the first three incidents, the latter assault may have been 
perpetrated by henchmen of the drug cartels, a significant number of 
whom are former Mexican soldiers or law enforcement officers. One such 
group, Los Zetas, works for the Gulf Cartel, and many of its members 
received training from the U.S. military and/or law enforcement 
agencies while they were employed by the government of Mexico.
    The Mexican government cannot avoid responsibility for the actions 
of these renegade groups, however, simply by denying any official 
involvement. By allowing them to operate with impunity along its 
northern border, Mexico bears some of the responsibility for their 
actions. It is inconceivable that our government would turn a blind eye 
to groups of armed criminals furthering the illegal entry of contraband 
into one of its neighboring nations, especially if they were 
threatening and/or shooting at foreign law enforcement officers.
    Most of the armed incursions along the southwest border coincide 
with the smuggling of illegal drugs into the United States. This factor 
alone, however, does not explain the high incidence of armed incursions 
by Mexican officials. Although large quantities of illicit narcotics 
are also smuggled across the border between the United States and 
Canada, there have been no documented armed incursions by Canadian 
military or law enforcement personnel. The relevant difference between 
the two nations is something that diplomats generally don't 
acknowledge, but that front-line law enforcement officers are acutely 
aware of and must deal with on a daily basis. A culture of corruption 
permeates every level of Mexico's military and law enforcement 
agencies. Law enforcement officers in Mexico are paid very low wages, 
and it is widely known and accepted that they augment their income by 
taking and extorting bribes. While the salary of Mexican soldiers is 
slightly higher, the temptation of large payoffs from the drug cartels 
is too much for many of them to resist, especially when there are few, 
if any, adverse consequences for doing so. Given this environment, the 
large number of corrupt Mexican police and soldiers should not surprise 
anyone. Although some politicians and high-level bureaucrats try to 
downplay the severity of this widespread problem, it negatively affects 
international law enforcement cooperation at the field level, as 
America's front-line law enforcement officers are unable to trust their 
counterparts south of the border.
    Even with the best of intentions on the part of Mexico to purge 
this rampant corruption from its military and law enforcement agencies, 
it would require major reforms and a substantial amount of time to 
accomplish that goal. In the meantime, the United States must take 
immediate and decisive action in order to protect its sovereignty and 
secure its borders:
    <bullet> The United States needs to recognize that it cannot rely 
upon its southern neighbor to stop the flow of illegal drugs across the 
southwest border, and must stop supplying financial aid to Mexico for 
that purpose.
    <bullet> Officials at the highest levels of our government must 
inform officials at the highest levels of the government of Mexico in 
clear and unambiguous terms that armed incursions across our border 
will no longer be tolerated.
    <bullet> The border between the United States and Mexico must be 
clearly marked in order to eliminate confusion and prevent 
unintentional incursions.
    <bullet> The ineffective and unsafe tactic of stationing Border 
Patrol agents at fixed positions in close proximity to the 
international boundary must be discontinued immediately.
    <bullet> America's de facto open border policy must be terminated 
by eliminating the employment magnet that entices millions of people to 
enter the United States illegally every year in search of work. The 
only way to do this is by enacting legislation that allows employers to 
easily determine who has a legal right to work in our country and then 
strictly enforcing that provision. Only one piece of pending 
legislation would ensure this result--H.R. 98, the Illegal Immigration 
Enforcement and Social Security Protection Act of 2005. All of the 
other legislative proposals suffer from the fatal flaw of allowing one 
document to be used to prove employment eligibility and another to 
establish identity. As outlined in a recent report from the Government 
Accountability Office, this would lead to widespread identity fraud and 
would seriously undermine worksite enforcement efforts.\1\ As long as 
our law enforcement resources at the border are primarily occupied with 
millions of laborers, it will be impossible to intercept the thousands 
of criminals who are also exploiting our porous borders.
---------------------------------------------------------------------------
    \1\ Immigration Enforcement: Weaknesses Hinder Employment 
Verification and Worksite Enforcement Efforts (GAO-05-813--August 2005)
---------------------------------------------------------------------------
    <bullet> The Border Patrol and other border law enforcement 
agencies must also be provided with the tools, training, and support 
necessary to accomplish their vital missions. H.R. 4044, the Rapid 
Response Border Protection Act of 2005, would provide many of these 
desperately-needed measures.
    <bullet> United States military units should be stationed at 
strategic locations near the southwest border in order to be able to 
quickly respond to and deal with future armed incursions by the Mexican 
military. The Border Patrol and other civilian law enforcement agencies 
do not have the proper equipment nor training to safely and effectively 
respond to such incursions.\2\
---------------------------------------------------------------------------
    \2\ This should not be construed as a call for the military to 
enforce our immigration laws, which would be problematic for two 
principal reasons. First, it requires a great deal of training to 
ensure that someone is prepared to effectively enforce our complex 
immigration laws. Border Patrol agents receive nineteen intensive weeks 
of basic academy training in a wide variety of topics, and an 
additional six months of on-the-job training. Attempting to shorten 
this training would likely result in numerous civil rights violations, 
including wrongfully arresting and incarcerating people who have a 
legal right to be in this country. Second, training soldiers to enforce 
civilian laws would needlessly endanger them during military combat 
situations, as the rules of engagement between the two settings differ 
dramatically. In civilian law enforcement situations, the use of force 
is permissible only in self-defense or the defense of an innocent 
third-party, and even then only as a last resort. It is well-
established that people instinctively react in a crisis according to 
their training. At best, people who are trained as both soldiers and 
law enforcement officers would hesitate in a crisis situation, 
endangering themselves. At worst, they would respond inappropriately, 
potentially endangering innocent people. An unfortunate incident that 
occurred near Redford, Texas on May 20, 1997 illustrates this problem. 
A squad of four U.S. Marines was conducting counter-drug border 
surveillance when it was fired upon by an 18-year-old high school 
student who was tending his family's herd of goats. The Marines 
outflanked the youth and fired a single fatal shot at him. While this 
response would have been appropriate in a military combat situation, it 
was entirely inappropriate in a civilian law enforcement setting.
---------------------------------------------------------------------------
    In summary, the level of violence associated with the long-standing 
problem of armed incursions into the United States by Mexican officials 
is escalating dramatically, posing a serious threat not only to the 
lives of law enforcement officers along our southwest border, but also 
to the security of our Nation. The United States needs to take decisive 
and forceful action to confront this growing menace before another 
tragedy occurs.

    Mr. McCaul. I want to thank the witnesses for their 
testimony. Very insightful.
    I think when a government fails to act, it is complicit by 
inaction, and I think the Mexican Government needs to fully 
cooperate with us, and I think it needs to help us secure these 
borders. There is no bigger threat to our national security 
than what is going on down there today, and I think many of the 
witnesses have talked about that.
    I share your concern. I believe that the terrorists will 
use the same vehicle delivery that the cartels do, whether it 
is dope, whether it is human trafficking, to get a terrorist 
across, Middle Easterners. We know the cartels can make $15 to 
$20,000 a person if they can smuggle a Middle Easterner across 
our border. Or, God forbid, something the size of a bale of 
marijuana, and that would be a nuclear device. It poses a 
tremendous risk.
    I am concerned about the immigration issues but first and 
foremost concerned about another terrorist attack in this 
country, and everything we do in the Congress should be 
designed to make sure that never happens again. I applaud your 
efforts.
    In watching the video you see what you go through every day 
and you see the frustration. The first time I saw the video I 
was struck by the frustration that you have when they commit a 
crime in the United States and then they drive back across the 
Rio Grande. Basically, you can't do anything about it but sit 
back and watch. To me, that is not right; it is wrong policy. 
We need better cooperation on the Mexican side to apprehend 
these criminals when they cross on the other side.
    Sheriff Legarreta, I want to focus on a couple of questions 
related to the video. As I understand, you were on the scene 
before that video was shot, is that correct?
    Mr. Legarreta. That is correct, sir.
    Mr. McCaul. Can you will tell us what you saw before that 
videotape?
    Mr. Legarreta. Before that videotape--I was actually the 
first one on the scene. I was right behind that blue Ford 
Expedition. If you have never been on the river levee, it has 
got a lot of curves. Where this Humvee was parked at was about 
150 to 200 feet prior to the last curve. When I came around 
that corner that Humvee was parked on the levee road waiting 
for this blue Ford Expedition. Once that blue Ford Expedition 
went by him, they turned around.
    There was one subject sitting in the back of the Humvee. It 
was an open bed Humvee, had a canvas top. The doors were not 
there. It was an olive drab military style Humvee. The subject 
that was sitting on the back of that Humvee was dressed in an 
all-black green military style outfit. Along with the color of 
the cap, what they wore and some type of insignia, I cannot 
tell you what it was, but it had an insignia on it; and he was 
holding a large-caliber weapon which appeared to be a 50-
caliber weapon to me mounted with a mounted tripod.
    Mr. McCaul. I believe your testimony was you observed 
individuals in military style uniform, is that correct?
    Mr. Legarreta. Yes, sir.
    Mr. McCaul. Can you describe that?
    Mr. Legarreta. Similar to the Border Patrol type outfit 
except it is solid green. It is an olive drab green.
    Mr. McCaul. Have you seen Mexican military before?
    Mr. Legarreta. Yes, sir.
    Mr. McCaul. Was it consistent?
    Mr. Legarreta. I have lived in Hudspeth County pretty much 
all my life and grown to know the military from Mexico. I have 
seen them occasionally right off the Mexican Customs side there 
where they have done random searches on people and stuff. So I 
have been knowing them pretty much all my life.
    Mr. McCaul. Have you seen the military style Humvees 
before?
    Mr. Legarreta. I have seen the American-type Humvees, and 
they was pretty similar to those. I believe there is only one 
type of military Humvee.
    Mr. McCaul. Can you tell us a little bit about your 
background in terms of experience with the military?
    Mr. Legarreta. Yes, sir. I did 6 years reserve duty with 
the United States Marine Corps, was honorably discharged as a 
sergeant, communications.
    Mr. McCaul. I guess when we first heard about this in the 
Congress we were trying to figure out what is going on down 
there. Either it is Mexican military, which would be the worst 
of all scenarios, or it is cartel dressed as Mexican military, 
or cartel members buying off members of the Mexican military. 
And I would like to ask each of the panelists in their opinion 
what do you believe these individuals who are assisting the 
drug traffickers, who are these people?
    Mr. Legarreta. In my honest opinion I believe it is 
everything. I think it is the cartel buying off the military, 
cartel buying off civilian people dressed as military and 
actually employing civilian to work for them.
    Mr. McCaul. Sheriff West.
    Mr. West. I concur with Deputy Legarreta. There is no doubt 
in my mind that is the way it is happening.
    Mr. McCaul. Sheriff Samaniego.
    Mr. Samaniego. I have lived on the border all my life. I 
was not at the scene when this happened, but based on the 
description that Deputy Legarreta gave us, I am inclined to 
believe that they were military.
    Mr. McCaul. Mr. Bonner.
    Mr. Bonner. I also was not at the scene. I have seen 
pictures and just saw the video. In my judgment, and it is by 
known means an expert opinion, it appeared to be Mexican 
military to me. But, as I stated in my testimony, it is 
immaterial. If Mexico is allowing this to happen, they bear 
some of the responsibility, a large part of that 
responsibility.
    Mr. McCaul. The Chair recognizes the ranking member.
    Mr. Etheridge. Thank you.
    Mr. Samaniego, as a sheriff, in your testimony you noted 
that the Federal Government is expecting local agencies to 
assist with addressing the national drug problem as well as 
increasing national security efforts but has reduced resources 
provided to local agencies. What impact has this had on your 
border State?
    I ask this question because just recently the sheriff in 
one of my counties in North Carolina confiscated $20 million 
worth of cocaine. I don't know where it came in the country, I 
have no way of knowing, but it took a lot off the street. I 
would be interested in your comment.
    Mr. Samaniego. We are affected by not only the drug 
trafficking but the drugs that manage to come across. El Paso 
is known as a warehouse city where the cartel crosses drugs 
through the bridges or the port of entry, around it, around 
Hudspeth County and then they stash it in El Paso until they 
have a big load. Then it goes to all the other cities in the 
U.S.
    I have probably about 30, 35 deputies assigned to drug task 
forces with DEA, with Customs, with the FBI, the U.S. Marshal, 
you name it; and it puts a big strain on us.
    Mr. Etheridge. Are you saying the bulk of the funding for 
those deputies is local funding?
    Mr. Samaniego. Some of it is grant funds, but I do have 
additional deputies assigned because I don't feel that we have 
enough of them. And we are also affected by burglaries or crime 
committed by illegal aliens coming in. Our jail is impacted, 
the population, and most--we do have a contract with the U.S. 
Marshal to house Federal inmates, and we average probably 800 
daily, but there is a bunch of them there that no one pays for 
and the taxpayers of El Paso have to foot the bill.
    Mr. Etheridge. In that regard, I noticed in the budget that 
was released yesterday from the administration, the President's 
budget, he zeroed out funding for the States' Criminal Alien 
Assistance Program; and we understand for States that funding 
has declined nearly 50 percent since 9/11, going from $45 
million to under $25 million. What impact, if any, has the 
continued reduction in this funding had on your ability to 
provide security on the border counties?
    Mr. Samaniego. We are going to continue to incarcerate 
anybody that violates the law. I don't care if no one pays for 
it. But we are getting reimbursed probably 5 cents to every 
dollar that we spend to house illegal or criminal illegal 
aliens.
    Mr. Etheridge. Thank you.
    That gets back to the point we raised earlier, this truly 
is a Federal responsibility, and if we don't reimburse for the 
efforts, we have got another problem.
    Mr. Bonner, in your testimony you covered some of this, but 
I want to get it on the record again. What resources, 
equipment, technology and infrastructure concerns, if any, do 
your members have that need to be addressed in remote areas 
along the border for us to be able to do the job that is 
required as Federal border agents to meet our commitment to 
protect our border?
    Mr. Bonner. Congressman, if you have a few hours, I could 
go down a whole laundry list.
    Mr. Etheridge. We have 40 some seconds.
    Mr. Bonner. We have vehicles that have close to 200,000 
miles that should have been retired at 40,000 miles because 
they get run hard. We have agents out there who do not do not 
have soft body armor that will stop a handgun bullet, but it is 
expired, it is defective. We have a crying need for more Border 
Patrol agents.
    It is heartening to see the administration come 75 percent 
of the way to what the Intelligence Reform Act promises of the 
2,000 Border Patrol agents, which is a big improvement over the 
210 they requested last year, but it is still not 2,000. And we 
should be increasing even more than that 2,000. We should be 
trying to increase the Border Patrol by 25 percent every year.
    There are a lot of things that we desperately need, and I 
don't see them on the horizon.
    Mr. Etheridge. In that vein, you are in contact with the 
person on the ground every day, what are the concerns that you 
are hearing from your members about the increased violence 
along the border?
    Mr. Bonner. The biggest concern that I hear is that we feel 
that we are out there alone, that we don't have the support 
from the folks in Washington, D.C., that they don't really 
care, they don't understand the problem and they just spout off 
these statistics which are just numbers to them. But when you 
are out there on the line and the rocks are flying at you or 
the bullets are whizzing by you, it is very real.
    Mr. Etheridge. Thank you, Mr. Chairman. I will save my 
time. Thank you.
    Mr. McCaul. Mr. Pearce.
    Mr. Pearce. Mr. Bonner, following along in that line of 
questioning, do you--let me switch gears just a second. Mr. 
West, you said that, page 4, the efforts to secure the border 
are not effective. You heard the testimony of Chief Aguilar, 
the head of Border Patrol, in his first section said the border 
was more secure every day. So do you not--you just absolutely 
disagree with that?
    Mr. West. Absolutely, yes, sir. Even though there are more 
agents coming in--for example, I asked him directly how many 
were coming to my area. Five hundred are supposed to be 
graduating, fixing to be put out in the field. I asked him how 
many were coming to my area. I got a response of 25 to cover 
the entire sector, which is probably the largest sector in the 
entire Border Patrol. Communications as well.
    As far as the officers on the ground, they are doing an 
excellent job, they are doing the best they can, but they are 
shorthanded in regards to that. Once you get past the guys on 
the ground, the brass, there is no communication. There is not 
any on my part.
    I will go so far as to say up until January when this 
incident took place I couldn't pick the A chief out of a crowd 
of two from El Paso. Never seen the man before in my life. I 
have had maybe--since 2000, when I took office, I have had the 
occasion maybe to have conversations with the chief maybe two 
or three times.
    So as far as the communication dialog, and I speak for my 
county, it is not there. Radio operations with them, we have 
not--there, again, I want to go back to the agents. They are 
doing the best they can with what they have got.
    Mr. Pearce. I appreciate that.
    The three of you in the sheriffs arena have described this 
as a Humvee. In the meeting just previous to this, the 
Ambassador just declared and the Under Secretary both declared 
it was absolutely a Hummer. When I looked at it--I don't know 
Hummers, that the exhaust goes straight up. That appears to be 
a little bit more of a Humvee characteristic. You all are dead 
certain that your testimony is correct that it was a Humvee, 
not just one of the look-like Hummers?
    Mr. West. No, sir, that was a Humvee, from our perspective.
    Mr. Pearce. You saw the video.
    Mr. Samaniego. Yes, sir, I did. Well, the most important 
thing is really not the uniforms but the tactics that were 
used. When Officer Legarreta got there, they were all in a 
group. They split up into two groups. They formed one line 
going left, one going right, and then disappeared, which 
anybody that has military experience knows that is a maneuver 
used by the military when they want to get you in a crossfire, 
and that is exactly what transpired. It is not something that a 
bunch of thugs in military uniforms would do.
    Mr. Pearce. Thank you.
    Mr. Bonner, you said that the problem appears to be with 
people in Washington, and I agree enough with that, but I think 
the Border Patrol itself gets some responsibility. I agree that 
the people on the ground have the right attitude, but when the 
head of the agency said that the border is not under siege, 
when he says that we are getting control of the border, and it 
directly contrasts with the testimony of the sheriffs, that 
directly contrasts even what the border agents in my districts 
say, how do you feel about those differing positions? Would you 
address that?
    Mr. Bonner. From the perspective of the rank and file, we 
believe that the border is completely out of control. The folks 
at the top get paid to say nice things about the Government of 
Mexico. They get paid to try and reassure the public. I don't 
get paid to reassure the public. I feel that my responsibility 
is to tell the truth to the American people, and the truth of 
the matter is our borders are out of control.
    Just about anyone who wants to come into this country, can. 
We capture about a million people a year, but our agents on the 
ground estimate that 2 to 3 million people get by us, and that 
frightens me. While most of them are probably just looking for 
a job, there are some very serious criminals in there, and 
there are some terrorists in there as well.
    Mr. Pearce. Thank you, Mr. Chairman. I will look for to a 
second round if you have it.
    Mr. McCaul. I know Secretary Chertoff stated this whole 
thing has been overblown, but I think if you look at it not 
just from a isolated incident but a cumulative effect it is 
not. It is sort of like the straw that broke the camel's back. 
When Neely's Crossing got hit, it got tremendous attention 
because of this rising problem out there that everybody 
identifies as a national security concern. So I am glad we are 
able to entertain this issue.
    I want to ask the sheriffs one question; then, Mr. Bonner, 
I have a question for you. For the sheriffs, what is your, if 
any, communication and coordination with your counterparts on 
the Mexican side like? Can you tell us about that?
    Mr. West. I have got a good relationship with the 
Presidente Municipale which is--he is kind of like the county 
judge or the county mayor, the way they explain it down there. 
The relationship with that gentleman is outstanding. I mean, 
any kind of communication back and forth that I need, for 
example, stolen equipment taken from the United States, I can 
contact him. If it is in that area, generally I can get it back 
without a problem.
    But that is where it stops. Once it goes beyond that, there 
is no communications. There again, up until the other day, I 
finally met the A chief or the A chief in El Paso; and I have 
no idea who the general is in Mexico or who any of those people 
are that play a role in that. I have asked the Mexican 
consulate who come to visit with me after this incident to give 
me a list of these people where we can make contact with them 
for the simple reason, if we do have incidents like that, I can 
have a direct communication with them. I have yet to see that.
    Mr. McCaul. I know when I was with the Justice Department 
we tried to comprise task forces. Obviously, trust is an issue 
there, but it a step in the right direction in terms of 
communication. And if that would be helpful, I think that is 
something we need to push in the Congress or push the Homeland 
Security Department to do.
    Mr. West. From my perspective as Sheriff of Hudspeth 
County, not on the Mexico side but also the dialog on the 
American side as far as Federal levels, and it needs to be a 
two-way street, not a one-way street.
    Mr. McCaul. I couldn't agree more, and that was my follow-
up question. That is, Mr. Bonner, when I look at that video, I 
see the State trooper making the chase. They get to the border. 
The deputy sheriff is already there, but Border Patrol is 
nowhere to be found.
    I had heard things in terms of the pursuit policy, and I 
want some clarification from you into what the pursuit policy 
is. Because we have heard reports that in this case they were 
told not to pursue, Border Patrol. I wanted to know if you 
could confirm or deny that. I think it would be helpful to get 
that out.
    Explain to me the pursuit problem. I get the sense the 
sheriffs are really the people on the ground, the first line. 
When we look at funding up here, that speaks volumes. And so 
why don't you help me with that and answer some of those 
questions.
    Mr. Bonner. I have heard the same reports that you have, 
Congressman, that Border Patrol was ordered to back off and 
that ultimately other units from the Sierra Blanca station 
responded; and we do have a pursuit policy that says if anyone 
is breaking any traffic law that they need supervisory approval 
in order to engage in a pursuit.
    My understanding is that they were told to back off of that 
pursuit, which troubles me, the whole notion that the Border 
Patrol can't pursue people who are breaking our laws. I mean, I 
have been involved in pursuits where I have been backed off 
when I could see what appeared in my professional judgment to 
be drugs sticking out of the back of a camper shell and was 
told to back off; and God knows how many lives were ruined or 
lost because of that shipment of drugs. And yet we have these 
insane policies that prevent us from doing our job. They tie 
our hands.
    Mr. McCaul. Do you believe that is a policy we should 
revisit?
    Mr. Bonner. I believe it should be revisited. I believe 
there should be laws that make it more painful to run from the 
law enforcement than to be caught. In other words, a mandatory 
sentence of say 25, 50 years. If you run from a law enforcement 
officer, you are going to jail; and we are tossing the key 
away. Take your chances, get pulled over, and then maybe you 
will only get 5 years for driving a load of illegal aliens.
    Mr. McCaul. It is hard to envision a full partnership when 
you have one hand tied behind your back, and I think that is 
what this policy effectuates. I will be taking a look at that 
as well because I think the sheriffs need that kind of 
assistance down there. I commend them for the work that they 
do.
    The Chair now recognizes the ranking member.
    Mr. Etheridge. Thank you.
    Sheriff West, you alluded to this some about relationship, 
but I would like to know for the record how would you 
characterize your relationship with the CBP and other Federal 
law enforcement officials on the U.S. side of the border.
    Mr. West. As far as the agents in the field, the PAICs in 
charge, I have got two Border Patrol areas that have two 
different PAICs that are in charge, Border Patrol agents in 
charge. As far as the PAICs up to that level, it is wonderful. 
The guys on the ground, the guys working out on the field, 
wonderful. Beyond the PAICs, I couldn't tell you. I don't know 
the people.
    Mr. Etheridge. If I use that--if I am understanding you 
correctly, it is great on the ground.
    Mr. West. Correct. But, beyond that, I don't have a 
relationship with them because I don't know them.
    Mr. Etheridge. I will accept that. You have shared with us 
the concerns you have on the other side of the border on some 
of them. I guess what we need to hear--again, let me ask you 
this question. What do you think the Federal Government needs 
to do to help secure our borders in rural areas, because that 
apparently--what do you think ought to be done?
    Mr. West. Number one--in regards to the Federal Government, 
number one is the COPs grant, something like that to allow us 
to be able to hire more people and put on the ground as far as 
the sheriffs offices are concerned.
    Number two is open a two-way street dialog with the higher 
up in regard to border patrols, whatever, all--it used to be 
Customs. Those channels need to be opened up, and the contact 
points need to be made and somebody can make a quick decision 
when the phone call is made and not wait 72 hours, 3 or 4 days. 
This incident started at a little after 1. A little after 2 it 
was completely over with. So those decisions needed to be made 
quick.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    Mr. McCaul. Mr. Pearce.
    Mr. Pearce. Mr. Chairman.
    I appreciate the testimony of every single one of you, and 
I appreciate your service.
    Mr. Bonner, as I consider one of the policies that really 
seems to not--the logic doesn't seem to quite connect, but in 
our district the border agencies have moved about 70 miles away 
from the border, and they put these checkpoints, and the stated 
reason is so that all the people who come across illegally will 
channel in and get on the interstates and then we will catch 
them all there. Is that really the thought process?
    Because what is happening is the people go to the back 
room, take a picture of the check stations and distribute them. 
Because they go through the back roads and so the pressure is 
on all the sheriff departments. What possible logic could the 
border agencies have for that?
    Mr. Bonner. Checkpoints have a useful function as a backup 
to the agents on the line, that what gets by the agents on the 
line can then be picked up by the second bite at the apple, if 
you will. They were never intended to be the only strategy.
    And the only thing--again, I don't speak for the higher 
ups. The only thing that comes to mind is that they believe 
that people like to see their tax dollars at work. You can 
point to agents at a checkpoint; people can go through and go 
look at all the Border Patrol agents. The country must be safe.
    But you are absolutely correct. It does not make a lot of 
sense to put all of your eggs in that one basket.
    Mr. Pearce. What about the agents--and I have been out and 
sat at night with the Border Patrol and sit there with the 
night vision goggles and try to pick up stuff. They tell me a 
lot of times they only get 2 hours in the field, and the other 
6 hours is used for paperwork to process the people that they 
catch. So they say effectively they have got about 2 hours a 
day for detention and the rest for paperwork. Is that something 
that you find is more broad-based than just the district I 
represent?
    Mr. Bonner. Depends on how many people you are catching and 
where those people are from. When you are catching people from 
countries other than Mexico, there is a lot more paperwork 
involved in that. And it is a source of frustration for the 
agents because you do all this paperwork and in many cases, as 
was noted earlier, these people are simply released.
    The key to the whole catch and release or the catch and 
remove program is having the funding to hang on to people long 
enough to remove them from the country. That is why we are in 
the mess now, because they didn't have enough money; and the 
word got out that--come on in to the United States. They will 
give you a piece of paper that allows you to remain there, and 
you can disappear.
    Mr. Pearce. Are you aware of the funding? When I asked the 
people in El Paso, that would be the station chief, I think Mr. 
Moon was his name, they supplied that the cost was about $75 a 
day. The cost at the Federal penitentiary in the county I 
reside is about $45 a day and included in that they are able to 
do therapeutic rehabilitation. Do you know about the cost per 
day to detain in border facilities?
    Mr. Bonner. It varies widely, and in a lot of instances we 
try and contract it out to the local or State facilities. But, 
again, it boils down to money, whether it is $75 a day or $45 
or $35, if you have no money for it, they walk out the door.
    Mr. Pearce. But you could detain twice as many if it went 
from $70 to $35.
    Mr. Chairman, I really appreciate this second panel. In the 
first panel, I just wish that you had given an invitation to 
the head of the Border Patrol to stay around and hear this 
testimony and also the lady from the Secretary of State because 
I think they should hear. In Washington, the upper echelon 
believes that the border is in control, but I hear the 
testimony of gentlemen like these who live with it every day, 
and the border is not in control, and we have a requirement to 
do something about that.
    Mr. Bonner, it takes great courage to come up and testify 
in contradiction with what the head of the agency says, so I 
appreciate that.
    Mr. Samaniego, thank you for your service. Fifty years, 
that is pretty nice.
    Mr. West, I appreciate your service.
    Mr. Legarreta, thank you very much. Your testimony was very 
compelling and was the piece that really convinced me that we 
knew what we were talking about when we said these things were 
Humvees, not Hummers.
    Mr. Chairman, there is a lot of very powerful information 
that has come out of this meeting; and I appreciate the 
opportunity to sit in today. Thank you.
    Mr. McCaul. Thank you, Mr. Pearce.
    I want to say sometimes you learn more from the troops on 
the ground than you do from the generals. We get a lot of spin 
up here in Washington. That is why I wanted to have you all 
come in face to face, particularly the sheriffs. I know you 
deal with this issue on the border every day and you face what 
we saw in that video. It means a lot to me, and it means a lot, 
obviously, to this committee, and we are dedicated to 
continuing with this investigation and doing whatever we can in 
the Congress to control this border.
    I want to ask Sheriff West, I was given some photographs, I 
am not quite sure what these are, but if you would like to 
address these, I would like to give you the opportunity.
    Mr. West. Yes, sir. I apologize. Sheriff Domingues handed 
me those today. Those photos were taken in 1993 in Presidio 
County of the same style military personnel or same style 
clothing of the military in Presidio County. They are basically 
running over us down there.
    Mr. McCaul. Is this on the Mexican side?
    Mr. West. No, sir, that is the American side.
    Mr. McCaul. These are Mexican soldiers on the U.S. side.
    Mr. West. Yes, sir.
    Mr. McCaul. Were they confronted?
    Mr. West. No, sir. The gentleman taking that photograph was 
I believe just a citizen taking them and saying, look, here is 
some photos of some Mexican soldiers on our side.
    Mr. McCaul. Deputy Sheriff Legarreta, have you seen these?
    Mr. Legarreta. I saw them just quickly.
    Mr. McCaul. I was curious if they look similar to what you 
observed--
    Mr. Legarreta. They do.
    Mr. McCaul. --in Hudspeth County.
    I want to thank the witnesses for their excellent 
testimony. This has been a very insightful for us. I want to 
continue an open dialog with the sheriffs and again thank you 
for coming up all the way to Washington. I hope your stay is a 
pleasant one; and if there is anything my office can do to help 
you, please let me know.
    I am going to go ahead and excuse this panel. We have one 
last one.
    Mr. McCaul. It is a distinct pleasure of the Chair to 
recognize a colleague and Member and friend, Silvestre Reyes.

STATEMENT OF THE HONORABLE SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you, Mr. Chairman and Congressman Pearce 
and my colleague Bob Etheridge. It is a privilege to be here.
    I appreciate the opportunity to come and testify because I 
think all of you know that my background before coming to 
Congress was in the United States Border Patrol after having 
served in the military. I had the opportunity to serve as a 
Border Patrol agent, and the last 12 years of my 26 and a half 
year career with the Border Patrol was as a chief. I was a 
chief down in south Texas for about 9 years. Finished out my 3 
years service in El Paso sector, which is the west Texas, all 
of New Mexico area. So I am very familiar with the area and 
with the operations of the United States Border Patrol.
    I am here because I am concerned that a lot of the work 
that we have been doing in terms of convincing the Mexican 
Government that they should be a partner with us, if we don't 
deal in facts and we don't deal in accuracy, then that 
partnership may not take place. And the reason I say that is 
because when, Mr. Chairman, you said that a government--when 
the government fails to act, then basically it is complicit. I 
think all of us are complicit in the situation that we have 
seen on the border here today. I am in my ninth year in 
Congress and since coming here I have been advocating that we 
ought to be funding a thousand Border Patrol agents every 
single year, along with equipment and technology to support 
them, to act as force multipliers. That hasn't happened.
    We have a very spotty track record in terms of the support 
that we give our border--our premier border agency. Even after 
9/11 we haven't done our job as a Congress. So when we fail to 
act, we are complicit, and we as a Congress are complicit in 
this.
    There is a lot of frustration at all different levels. I 
was born and was raised on the border. I represent a border 
district. I spent almost my entire career in the Border Patrol 
working along the U.S.-Mexico border, so I know the challenges.
    When you hear Chief Aguilar talk about the priority that a 
chief has to make sure that not only are you operationally 
sound but that you also know those that are in charge across 
the border, he is exactly right.
    When Sheriff West talked about just knowing the man who is 
like a mayor and nobody else, that is not anybody's fault 
except the sheriff. There are ways to be able to go and do 
liaison for the sheriff, chief of Border Patrol and anybody 
else that has that as a priority, but you have got to have it. 
If you worry about the issue of corruption, then when some 
incident occurs you are not going to know who to call, you are 
not going to have any kind of relationship with an individual 
that may be able to help you.
    I can relate to you one important incident that occurred to 
me when I was a chief, and that is we got a report that one of 
our detention officers had been kidnapped. And because I knew 
the head guy of Customs and the head guy of the PGR, I was able 
to call, find out that that was not the case. They actually 
responded to the place where this individual was supposedly 
being held. The individual was there, but he was there 
voluntarily. He had not been kidnapped.
    But if you don't have--if you don't establish those 
relationships, if you don't understand that is an important 
part of your duty on an international border, then you really 
have no business being in charge of any entity.
    I am concerned about this particular incident because of 
the misimpression that it sends nationally and because of the 
sensationalism that is associated with it. I can tell you that 
when I first heard of this incident I called the ambassador and 
I called the Mexican consul and said, expedite an investigation 
as soon as possible. Because some of the things that I heard 
then and I heard today didn't make sense to me.
    I worked, as I said, all my adult life on the border. I 
never saw a 50-caliber machine gun on the back of any kind of 
military style vehicle. I am an Army veteran and I know what 
that looks like, and those of us in the military know those are 
pretty impressive weapons. Under stress, it can certainly 
appear to be a 50-caliber to somebody that is not familiar with 
it. But there is a big difference between making a statement 
conclusively that this was the Mexican military, without having 
all the facts, and making a statement that it was a military 
style vehicle.
    I think the bottom line for me is that we, as Members of 
Congress, need to do three very important things. The first one 
is we need to understand the problem. We need to have all the 
facts, and then we need to be willing to act on it. When we 
have got Members that don't understand the operation and 
necessity for checkpoints, as my colleague from New Mexico was 
mentioning, then there is a serious issue. It is not for show. 
It is not to tell the people that they are secure. Those 
checkpoints are very effective in taking down drug lords and 
also other felons of different types. And the chief can give 
you all those statistics.
    They don't take officers from the line because, as you 
mentioned, Congressman Pearce, you have been out there on the 
line with some of the officers. I can tell you this. When 
officers are assigned out there and they apprehend undocumented 
people, somebody has to process them. I thought we had done a 
much better job of computerizing the record checks and the 
forms so that that had reduced the processing time 
considerably.
    I take great exception with the statement made by an agent 
or agents that say that they work the line for 2 hours, then 
they have to spend 6 hours processing. Unless they are catching 
40, 50 people among the two agents, that doesn't sounds right 
to me. But that means to me that we have to bring, for 
instance, the chief of the El Paso Border Patrol, give him an 
idea of what we are looking for so that he can bring in the 
agent in charge of those areas we are interested in and take an 
accounting on that.
    Every single station has an operational report monthly 
where they report operational time versus processing time, and 
all of that can be analyzed by the staff. All of that is 
important as we go about trying to support the agency that has 
the lead responsibility for protecting our Nation's borders. I 
fear that we sometimes fail to appreciate the work that they 
are doing.
    Sometimes we fail to look at ourselves for our 
unwillingness to hold ourselves accountable and also two 
administrations since I have been in Congress, the Clinton 
administration and the Bush administration. We need to do a 
better job. We need to give them the resources. We need to give 
them the personnel. You heard Chief Aguilar say that they can 
assimilate, train and deploy 2,000 agents a year.
    When Mr. Bonner talks about 25 percent of the Border 
Patrol, I can tell you that is very unrealistic because there 
is a training process, there is a seasoning process. You don't 
want to have a disparity between trained, seasoned officers 
versus trainee agents.
    The border is a dangerous place, as you can see by those 
videos. The border is not a place for amateurs. The border 
needs to be a well-structured area with somebody in the lead. 
The lead belongs to the United States Border Patrol. The 
problems that they have had in terms of resources is because we 
have failed them. We have failed them, we have failed our 
country, and in the process we failed ourselves.
    We are as complicit as anyone else might be in the system, 
and I would strongly urge that we change that. That is why I am 
so grateful to you, Mr. Chairman, that you are willing to take 
this on. Because I have been advocating before the creation of 
Homeland Security with the Judiciary Committee. I always tell 
my colleagues--and, by the way, Chief Aguilar used to work for 
me, so I know him to be a straight shooter. He is an 
outstanding--he was an outstanding patrol agent in charge and 
is today an outstanding choice for that national chief. We need 
to support people like that.
    Then we also need to understand that where there is a void 
because of our failure to act, you are going to have those that 
jump in that void. You see that by these sheriffs. They see an 
opportunity there. They see frustration because they don't have 
the resources. Their funding comes from the county. That is 
their primary source of funding. That is their responsibility. 
So I certainly don't blame them, because having good relations 
with all the different law enforcement entities is vital.
    You can bet that I am going to mention to Chief Gilbert, 
who is now the chief in El Paso, that he needs to reach out and 
do some of these things that were identified and spoken about 
here this afternoon. But, most of all, we need to understand 
that for us it is about making sure that we keep our country 
safe, making sure that we hold Mexico to the standard that they 
have to help us manage that border.
    I can tell you, Mr. Chairman, and I told you last Friday 
that I made those phone calls, they put those field 
investigative teams out there, they notify the different 
agencies. That is why that other video was publicized. We don't 
get any where by sensationalizing. We don't get anywhere by 
making accusations without having all the facts. That is our 
job.
    I applaud you for the work that you are doing, and I would 
be glad to answer any questions that you might have about the 
time I have been here since leaving the Border Patrol or when I 
was a chief in the Border Patrol. I am fortunate to have worked 
my way up through the ranks in the patrol, so I can speak with 
a degree of authority on the work of a great agency with great, 
dedicated personnel and the greater effort that they give each 
and every day.
    So thank you for giving me a chance to be here.
    Mr. McCaul. I wanted to say in response, Congressman Reyes, 
how fortunate we are have to have someone like you in the 
Congress. Twenty-five plus years Border Patrol, chief of the El 
Paso sector. I knew you before I ran, and you are a valuable 
asset, and I look forward to working with you on this. I 
appreciate your invitation down to El Paso after this. I think 
there is a lot of follow-through that we can do together. We 
have worked on bills in the past, and I think there is plenty 
of room in the future.
    I agree with you, in final comment, that it is a Federal 
responsibility first and foremost. I think we have failed, the 
Federal Government has failed in that, and that is one of our 
biggest charges up here, because you are talking about lives 
and people. So, again, thanks for being here; and I look 
forward to working with you some more in the Congress.
    Mr. Etheridge. Mr. Chairman, let me say to my colleague we 
appreciate him being here. Thank you so very much for not only 
what you did before you got here but what you do as a Member of 
this Congress and your contribution. We appreciate it.
    You are right. We have got to hold people's feet to the 
fire now. We will find out where the resources are to get the 
job done. Because it is a Federal responsibility, first and 
foremost; and when that doesn't get done, it falls on the 
shoulders of those who are on the border, but, more 
importantly, it ripples all across America in a host of ways.
    Thank you.
    Mr. Reyes. Thank you.
    Mr. McCaul. The committee stands adjourned.
    [Whereupon, at 6:02 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


           Additional Questions and Responses for the Record

                      Elizabeth Whitaker Responses

    Question: It was unclear from your oral testimony what types of 
incidents would arise to a serious enough nature in which the U.S. 
would contact Mexican authorities.
    Response: Normally, local authorities on both sides of the border 
are able to resolve incidents without recourse to national authorities 
in Washington and Mexico City. The United States Government would 
contact the Mexican national government only where local efforts did 
not resolve the incident.

    Question: Please list and explain how many other incursions into 
the U.S. have ever risen to the level that required a diplomatic note 
with the Mexican government.
    Response: We are not aware of incursions into the U.S. other than 
the one on January 30 that required a diplomatic note to the Mexican 
government. In 2000, the State Department was consulted when Mexican 
troops inadvertently entered U.S. Territory near Santa Teresa, N.M., 
but our records do not show that a diplomatic note was sent.

    Question: In such instances in which the Department of State 
submitted a diplomatic note to the Mexican government for possible 
incursions, what action was requested on behalf of the U.S. government? 
What has been the outcome of these requests?
    Respsone: After the January 23 incursion, the Department requested 
that the Mexican Government's investigation indicated that the parties 
involved in the incursion had no connection to the military or 
government. Further, Mexico identified four individuals believed to be 
involved in the incursion; those individuals remain at large.

                                 <all>

</pre></body></html>
